<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New 
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 JOHN W. OLVER, Massachusetts       KEN CALVERT, California
 LINCOLN DAVIS, Tennessee           RODNEY ALEXANDER, Louisiana  
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania      
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Taunja Berquam, Joseph Levin, James Windle,
            Tyler Kruzich, and Casey Pearce, Staff Assistants

                                ________

                                 PART 7
                          DEPARTMENT OF ENERGY
                                                                   Page
 Nuclear Energy...................................................    1
 Secretary of Energy..............................................   81

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
      PART 7--ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2011
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                  PETER J. VISCLOSKY, Indiana, Chairman
 CHET EDWARDS, Texas                RODNEY P. FRELINGHUYSEN, New 
 ED PASTOR, Arizona                 Jersey
 MARION BERRY, Arkansas             ZACH WAMP, Tennessee
 CHAKA FATTAH, Pennsylvania         MICHAEL K. SIMPSON, Idaho
 STEVE ISRAEL, New York             DENNIS R. REHBERG, Montana
 JOHN W. OLVER, Massachusetts       KEN CALVERT, California
 LINCOLN DAVIS, Tennessee           RODNEY ALEXANDER, Louisiana  
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania      
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
               Taunja Berquam, Joseph Levin, James Windle,
            Tyler Kruzich, and Casey Pearce, Staff Assistants

                                ________

                                 PART 7
                          DEPARTMENT OF ENERGY
                                                                   Page
 Nuclear Energy...................................................    1
 Secretary of Energy..............................................   81

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 61-780                     WASHINGTON : 2010

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman
 
 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New  
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania    
                                    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)


 ENERGY AND WATER DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2011

                              ----------                              --
--------

                                           Tuesday, March 23, 2010.

                      NUCLEAR ENERGY FY2011 BUDGET

                               WITNESSES

WARREN F. MILLER, JR., ASSISTANT SECRETARY FOR NUCLEAR ENERGY, U.S. 
    DEPARTMENT OF ENERGY
    Mr. Pastor [presiding]. The hearing will come to order.
    Good afternoon. We have before us today Dr. Warren ``Pete'' 
Miller, Assistant Secretary for Nuclear Energy. This is his 
first time before this subcommittee. He brings impressive 
experience to this job, and we look forward to working with 
him. He will be presenting the President's fiscal year 2011 
budget request for the Office of Nuclear Energy.
    The Office of Nuclear Energy comes to us today proposing a 
revised portfolio for fiscal year 2011. The President's request 
includes $824 million for nuclear energy, $37 million above 
fiscal year 2010. However, these figures are misleading without 
considering that all activities related to Yucca Mountain are 
included in the Office of Nuclear Energy, albeit at a 
drastically reduced level, and the Nuclear Power 2010 program 
has been completed. The proposal includes research into nuclear 
reactor enabling technologies, small modular reactors, and 
advanced reactor concepts.
    While we have yet to see the Nuclear Energy Strategic Plan 
promised to us--how long has the promise been? Since our bill 
last year, I guess, the promise was made--we hope to see it 
soon.
    This budget proposal raises questions regarding the 
administration's approach to nuclear energy. On its face it 
appears that the administration is spreading its investment 
into a growing number of activities at the possible expense of 
making substantial progress on anything. I look forward to your 
defense of the choices made.
    The most significant revision proposed for the Office of 
Nuclear Energy is its leading role in nuclear waste disposal. 
The administration's termination of Yucca has created a great 
deal of uncertainty when it comes to how the Nation will 
dispose of its nuclear waste. To say the least, the 
administration could have communicated this major policy 
decision in a more forthright manner.
    Your organization, Dr. Miller, will be responsible for 
executing the Department's responsibility under the Nuclear 
Waste Policy Act and forming the Blue Ribbon Commission that 
will be looking at alternatives for the back end of the nuclear 
fuel cycle. We have questions regarding how your organization 
will support the termination process and the path forward.
    Your full written testimony is entered into the record. 
After the hearing we may have some questions for you to answer 
for the record. Assistant Secretary Miller, I ask that you 
ensure your responses and any supporting information requested 
by the subcommittee are delivered in final form no later than 4 
weeks from today. If Members have additional questions that 
they would like to submit for the record, please provide them 
to the subcommittee by 5 p.m. tomorrow.
    Mr. Pastor. With these opening comments, I would like to 
yield to the Ranking Member.
    Mr. Frelinghuysen. Dr. Miller, good afternoon, and 
congratulations on your appointment. To say the least, it is 
pretty interesting times for all things nuclear, so we are very 
pleased to have you with us this afternoon.
    Your experience in the military--and I note you are a West 
Point graduate, Vietnam service--academia, and during your long 
career at Los Alamos obviously give us some full testimony that 
you have come to the job well prepared, and we recognize that. 
It is great to have somebody with your background at the helm.
    I said to Secretary Johnson last week that as our Nation 
drives towards the development of clean energy solutions, it 
must be an all-inclusive approach.That simply must include the 
responsible expansion of nuclear power.
    Unlike last year's request, which left this committee 
having to carry the water for many nuclear programs, this 
budget appears to reflect a results-oriented approach. It 
appears that the programmatic maker of the Office of Nuclear 
Energy supports that notion as well. Take the Next Generation 
Nuclear Plant as one example. Last year no funding was 
requested for the program despite the potential to move forward 
towards new nuclear technologies. This year the program is back 
in the request at $105 million.
    Programs like the Next Generation Nuclear Plant, though 
recently concluded the Nuclear Power 2010 program, and now the 
newly proposed Small Modular Reactor Program, can move us more 
quickly forward towards increasing our nuclear power share of 
electricity production beyond its current 20 percent.
    During these tough times it should not be the government's 
role to create jobs, but rather to provide the opportunity. I 
think many have been confused on this point. I believe that 
nuclear power offers one such opportunity. With estimates that 
each new power plant will generate as many as 2,400 
construction jobs, nearly $40 million in labor income, and over 
$100 million in local, State and Federal tax revenue, this must 
be one of the solutions.
    Dr. Miller, while I am encouraged by what I have seen so 
far of your request, I feel I must also call your attention to 
the picture on the far wall on my left. I think you may be 
familiar with it. That is not the face of the Moon, it is an 
aerial shot of where Yucca Mountain is. That photo hangs in 
this hearing room as a rather frank reminder of where this 
committee stands on Yucca Mountain.
    Last week Mr. Pastor and I made our opinion of the 
administration's position on Yucca Mountain quite evident. We 
will have time with Secretary Chu tomorrow to get at this 
issue, but this request proposes to eliminate the Office of 
Civilian Radioactive Waste Management and move its remaining 
functions under your office. I understand that all of the 
employees have received notice of expected separation. The 
Deputy Secretary of Energy has identified these employees, over 
180 of them, as surplus. I find that--and I think we probably 
find that--pretty troubling. I intend to discuss this in 
greater detail with Secretary Chu when he appears before us 
tomorrow. I also hope that we can have at least some level of 
candid discussion on this important policy decision as we 
discuss the details of your budget request.
    Thank you for your appearance.
    And, Mr. Chairman, thank you for the time.
    Mr. Pastor. Assistant Secretary Miller.
    Mr. Miller. Thank you. Vice Chairman Pastor, Ranking Member 
Frelinghuysen, members of the committee, thank you for the 
opportunity to appear before you today to discuss President 
Obama's fiscal year 2011 budget request for the Office of 
Nuclear Energy.
    The administration is committed to restarting our domestic 
nuclear industry. President Obama recently announced 
conditional commitments for more than $8 billion in loan 
guarantees to build two new nuclear reactors, potentially the 
first new reactors ordered and constructed in the United States 
in more than 30 years. As the President has said, to meet our 
growing energy needs and prevent the worst consequences of 
climate change, we need to increase our supply of nuclear 
power.
    The President's fiscal year 2011 budget request further 
supports nuclear power by requesting an additional $36 billion 
in loan guarantee authority. This would bring the total to $54 
billion. In addition, the President's budget request totals 
$912 million for the Office of Nuclear Energy, including $495 
million to support a robust research and development program. 
This $495 million will provide a firm, broad foundation for the 
future of nuclear power by engaging the country's intellectual 
capacity both to overcome the challenges in front of us and to 
train the workforce of tomorrow.
    Mr. Chairman, my written testimony covers our budget 
request in detail, so with my remaining time I will focus on a 
few important themes.
    Our proposed cross-cutting research activity, called 
Nuclear Energy Enabling Technologies, is intended to galvanize 
the applied research communities at universities, national 
laboratories, and the private sector to tackle those issues 
that, if resolved, could be game changers for future deployment 
of nuclear energy. These range from novel nuclear fuels to 
radiation-resistant structures, to advanced computational 
modeling to create virtual simulations of existing and future 
reactors. It is critical that we establish a strong research 
effort to regain U.S. nuclear energy leadership through 
increased engagement of our science and engineering 
communities.
    In February, the Department of Energy established a Blue 
Ribbon Commission on America's Nuclear Future to conduct a 
comprehensive review of the back end of the nuclear fuel cycle. 
The Commission will produce a final report within 2 years that 
will provide recommendations for developing a safe, long-term 
solution to managing the Nation's used nuclear fuel and nuclear 
waste, and my office will provide support as requested. While 
the Commission is working, we will continue our strong research 
program on fuel cycle technologies.
    I would like to call to your attention our new Modified 
Open Cycle program. Over the past several years, our country 
has been engaged in a debate over whether to continue with our 
once-through strategy or move to full recycling of our used 
nuclear fuel. Each of these options has advantages, but also 
significant drawbacks. It is important to understand that there 
is a wide range of promising technical options in between these 
two possibilities that should be explored and considered.
    Modified open cycle research will encourage creative 
approaches to managing our used fuel in ways that extend our 
fuel resources while reducing our radioactive waste burden, 
thus providing future policymakers with a wider array of 
options from which to choose.
    Finally, our budget request would support new reactor 
designs, including the Next-Generation Nuclear Power Plant for 
industrial process heat, and long-range R&D on small module 
reactors. The SMR program would also support near-term 
deployment activities up to and including design certification 
cost sharing.
    Smaller reactors offer potential advantages in the way they 
are sited, licensed, financed, manufactured and built. If 
successfully deployed, they offer the United States a 
tremendous opportunity to position itself as a world leader in 
nuclear energy, bolster our manufacturing sector, create 
thousands of good-paying jobs, and to build a new generation of 
reactors that are made in the USA.
    President Obama has said, ``The nation that leads the world 
in creating new sources of clean energy will be the nation that 
leads the 21st century global economy.'' I believe that our 
nuclear energy R&D budget will help ensure that nuclear energy 
is part of that clean energy mix.
    Mr. Chairman, thank you for the opportunity to appear 
before the committee, and I am pleased to take any questions 
now.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T1780A.001
    
    [GRAPHIC] [TIFF OMITTED] T1780A.002
    
    [GRAPHIC] [TIFF OMITTED] T1780A.003
    
    [GRAPHIC] [TIFF OMITTED] T1780A.004
    
    [GRAPHIC] [TIFF OMITTED] T1780A.005
    
    [GRAPHIC] [TIFF OMITTED] T1780A.006
    
    [GRAPHIC] [TIFF OMITTED] T1780A.007
    
    [GRAPHIC] [TIFF OMITTED] T1780A.008
    
    [GRAPHIC] [TIFF OMITTED] T1780A.009
    
    [GRAPHIC] [TIFF OMITTED] T1780A.010
    
    Mr. Pastor. As you have heard, we have a vote. We are going 
to go ahead and probably ask a few questions and then come back 
and do the remainder.
    The question I have to start with will be the last bill you 
received monies for the hub, the nuclear hub. We are now almost 
6 months since the bill was passed and became law. What is the 
status of the hub to this point?
    Mr. Miller. Starting in the fall, as soon as we received 
appropriations, we began first with workshops with the 
community that would compete for this hub. Then we issued a 
funding opportunity announcement. We have gotten responses, and 
we are in the midst right now of peer review of the response of 
the proposals that we have received. We hope to make a decision 
on the recipient of that process by the end of May and start 
working.
    Mr. Pastor. How many people turned in a proposal?
    Mr. Miller. So, unfortunately, the procurement process 
doesn't allow me to answer that question publicly.
    Mr. Pastor. Not even the number?
    Mr. Miller. I actually asked that question before coming, 
and I was told I wasn't supposed to answer that question. I am 
sorry, Congressman.
    Mr. Pastor. Maybe it is a sole-source bid, I don't know.
    Mr. Frelinghuysen. No, it is not a sole-source bid.
    Mr. Pastor. We know it is more than one then.
    Mr. Frelinghuysen. It is not a sole source.
    Mr. Pastor. Wow, that is interesting. Well, for this year 
you requested, I think, what, 24-?
    Mr. Miller. Yes.
    Mr. Pastor. And last year you received 22-.
    Mr. Miller. Yes.
    Mr. Pastor. We are almost 6 months into the year. Now, 
obviously you haven't spent $11 million.
    Mr. Miller. No, we have not.
    Mr. Pastor. And by the time you get started, we are into 
May, so that is even further into the year. And startup costs 
are not going to take--so what are you going to do? Would it be 
practical for me to say you have $22 million, and just because 
of following the rules, you are now into June before you even 
start actual work on implementing the hub, so you still have 
over two-thirds of the budget still available to you that you 
might be able to use this year and carry over to the following 
year.
    Mr. Miller. Yes. The scope of the hub that was planned was 
a 5-year program at approximately $25 million a year.
    Mr. Pastor. Right.
    Mr. Miller. And the expectation was that we wouldn't get 
started for 6 months. So the expectation was to carry over some 
of that support or money into the next fiscal year. After that, 
if it looks like the program isn't going to spend that kind of 
money, we would make adjustments in 2012 or beyond, depending 
upon the scope of the actual work being done by the hub. So 
that is what the plan is.
    Mr. Pastor. What if the plan was, since you are going to 
carry over almost two-thirds of the money, why don't we see how 
much you can spend this year and next year and try to have a 
better estimate so that we can see where we can fund other 
priorities that this administration has? That is another way of 
looking at it.
    Mr. Miller. Yes. Well, we did think of that, Congressman. 
And the President's plan is the plan that I just laid out of 
carrying over, and then going into the next year, and then 
making adjustments in following years. It is even possible in 
following years the Administration will request more than $25 
million.
    Mr. Pastor. Because I would say the other way of looking at 
it is they have two-thirds of the budget left over from this 
year, so why don't we see what is realistic in 2010 and then 
move it over to 2011, because there are other priorities that 
this President has asked for in DOE that we will also try to 
fund, especially under his other dictate of fiscal 
responsibility.
    Mr. Miller. I understand.
    Mr. Pastor. And so we have two competing responsibilities 
that the President has laid on us. So that is a possibility 
that I just bring out, so--Ranking Member.
    Mr. Frelinghuysen. I suspect a lot of people haven't voted 
though; is that right? If it is all right with you, Mr. 
Chairman, I will just proceed.
    Dr. Miller, there are competing views on the role of the 
Federal Government in advancing nuclear power. Obviously some 
people would like us to do nothing, but we don't believe in 
that on this committee, nor does the President. There is an 
argument that government should incur the early risk and make 
up sizeable upfront investments in reactor research and 
development, design and demonstration. Then there is the 
counterargument. The counterargument is that industry needs to 
have skin in the game early in the project since industry will 
be the eventual beneficiary of taxpayer investments.
    Currently, as all of us are aware, many projects are cost 
shared with industry, as required by law. How would you 
explain, what is your take on the proper role of the Department 
in terms of supporting research, development, design, 
licensing, demonstrations and the deployment of nuclear 
reactors? I know that is somewhat of a softball, but I think it 
goes to the core of what we are talking about here. What is 
your take on what we should be doing?
    Mr. Miller. I think I understand the question, Congressman.
    Well, first let us talk about the Generation III reactors, 
the ones that we are hoping to begin deploying in the not-too-
distant future. There it is clear that the government role is 
loan guarantees. There needs to be some help with the early 
movers, the earlier plants, in order to help with the capital 
costs associated with earlier plants. Then, on the other hand, 
when we get to the small modular reactors, we hope there to 
help with design certification of those reactors, and as yet it 
is not clear whether the Federal role needs to be any more than 
cost sharing up to design certification.
    So I think it is going to depend on the reactor type. It is 
going to depend on the capital cost. It is going to depend on 
the market at the time. But there is clearly a limit to where 
the Federal Government ought to go. But when there is something 
to be gained for the American taxpayer, like deployment of the 
next-generation reactors, I think it is up to us to make sure 
that we provide the appropriate simulation to make sure it 
happens.
    Mr. Frelinghuysen. So the administration is, for many 
people, taking some bold action.
    Mr. Pastor. I would think so, sir.
    Mr. Frelinghuysen. That is a stake in the ground. How we 
are going to pay for it all, I don't know. But obviously, from 
our standpoint, I think we have to make sure that we support 
the President. We need to make sure we have the ability to pay 
for those loan guarantees.
    Okay. Thank you, Mr. Chairman. I will get some other 
questions later.
    Mr. Pastor. Mr. Simpson.
    Mr. Simpson. Following up on what Ranking Member 
Frelinghuysen was talking about, you and I talked the other day 
about the role of industry in all of this. And my concern, as I 
expressed to you, is that industry isn't involved. Eventually 
we are doing this research and development of reactor types to 
actually deploy them. We don't want to do it if industry 
doesn't want it. It is not going to make much sense.
    So what role do we have with industry up front so that we 
know that what we are doing--as an example, what are the two 
designs that are going to be designed, one by Westinghouse, one 
by General Atomics? Are those two different designs? What is 
the role of industry, the end users, in these concepts and so 
forth?
    And do we have any formalized, or should we have some 
formalized type of process by which the DOE and those that are 
going to be using whatever we develop can coordinate their 
activities and can talk about what is expected of industry to 
put up? Because for years, for the 8 years I have sat on this 
committee, every year we have talked about what industry thinks 
the government ought to do, what government thinks industry 
ought to do. It is the chicken and egg; nobody wants to jump 
off the cliff. And somehow we have got to have some type of way 
of sitting down and saying, listen, this is what we are doing, 
this is what we want to do, and this is going to be our 
commitment on the part of the government, and this is going to 
be our commitment on the part of industry. And I am not sure if 
there is any formalized sort of thing to do that. Is that 
something we should be doing?
    Mr. Miller. Thank you for that question. And it is an 
interesting discussion that we had.
    So let me just speak about the general topic. First, you 
asked about the two designs. There are two different designs, 
Westinghouse and GA, for the NGNP. And so in that particular 
case, what happens is industry is not shy about coming to visit 
us. And so in that case, many times we have been visited by 
those who are interested, and they talk to us all the time 
about their concerns, their interests. And then there tends to 
be a period in which we can't talk to them, like we are in a 
period right now of negotiating the terms of these particular 
agreements. So then we have to pause and can't talk to them, 
and then we can start talking to them again. So one method that 
we do this is just they come in and talk to us, our door is 
open. So I have spoken to a wide group of industrial people 
interested in NGNP.
    So then on the small module reactor, for example, we are 
going to do workshops where we are going to bring industry 
people in to talk about what is the best way that the 
government--and most appropriate way--that the government can 
speed up the commercialization of these small module reactors? 
So that is another approach.
    The other approach is for the Light Water Reactor 
Sustainability program. There we are working on trying to do, 
again, what is appropriate for the government to extend the 
life of the existing plants. There we have an advisory 
committee that actually has EPRI, which is an industry 
organization that is part of the advisory committee.
    And so we have been using a wide range of approaches of 
involving industrial concerns in what we are doing, because, as 
you point out, Congressman, there is no sense for us working on 
a reactor that no one is going to commercialize. So I think it 
is very important that we consider all possibilities as far as 
different approaches to involving industry, and we are surely 
open to that.
    Mr. Simpson. I was kind of surprised that we are now 
working on what the cost-sharing relationship is going to be 
with General Atomics and with Westinghouse on these proposed 
projects. I would have thought that--and this is, I guess, part 
of the planning I am talking about--that beforehand that 
determination would have been made. And as an appropriator, I 
am sitting here thinking, what is going to be expected of me if 
we decide to move forward with NGNP? And we have put a lot of 
money into it so far, but as we move down the road 2, 4, 10 
years, what is going to be expected of this committee in terms 
of appropriating money? And what can I expect industry to put 
on the table?
    We need some determinations beforehand rather than letting 
out the plans and then saying, let's negotiate on what the 
price is. And that is, I guess, where I am coming from is that 
somehow we need to develop some type of working group with 
industry so that we are working as a team, both the government 
and industry, with the different industries, both the end users 
and those that are going to be building the reactors and so 
forth. And how is this all going to work?
    And I will talk a little bit more when we get back about 
the budget. One of the things that is frustrating, I think, to 
all of us on the committee, not this administration, but the 
fact that every time we have a new Secretary, we redesign the 
entire budget. And so I would like to understand where the old 
budget is in this budget, things like what happened to Gen 4, 
and where is that money now? And what are we calling it, New 
Reactor Concepts? Have we just changed the name? We need some 
follow-through so that we have some longevity in terms of what 
we are appropriating money for.
    But I will tell you, before we go over to answer the vote 
on this, I do compliment the administration. This is the first 
administration that has actually said that they supported and 
wanted to promote nuclear power, that has actually put a budget 
behind it that looks like they are serious about it. So I do 
compliment the administration for that.
    Mr. Pastor. We will recess to vote. [Recess.]
    Mr. Pastor. Mr. Rehberg, you want to throw a couple of 
questions?
    Mr. Rehberg. Is it my turn?
    Mr. Pastor. Sure.
    Mr. Rehberg. I had a fellow from DOE a couple of years ago 
that came up with a suggestion. As we look at coal 
sequestration, there may be an opportunity for a cogeneration 
facility to do something with the CO<INF>2</INF>. 
Sequestration, of course, is a problem in the creation of any 
kind of electricity from coal. Is there anything going on in 
your neck of the woods, in your arena, that you are aware of at 
DOE having to do with a cogeneration opportunity with coal?
    Mr. Miller. I am sorry, Congressman, you mean nuclear with 
coal?
    Mr. Rehberg. Yes, nuclear with coal.
    Mr. Miller. No, not that I know of. I don't know of 
anything like that. I will tell you where we cross with EM and 
with FE and NE is discussions of migration of materials 
underground; how do you retain materials that would seep, and 
how do you model that? That is where I connect a lot with Mr. 
Markowsky at FE, but I don't know of any activities we have 
about cogeneration, meaning at the same site having a coal 
plant and a nuclear plant.
    Mr. Rehberg. It was just an idea they threw out, and they 
said because of the burning, it might have an opportunity to 
burn the CO<INF>2</INF>, which seemed plausible, but it is way 
out there. I was hoping that maybe that idea had filtered 
through. It did not. Okay.
    Mr. Miller. No, but we will get back to you for the record, 
and I will check into it.
    Mr. Rehberg. See if there are any studies that have been 
done or any opportunity along that line.
    [The information follows:]

    Mr Rehberg. See if there are any studies that have been done or any 
opportunity along the lines of nuclear cogeneration with coal and the 
opportunity of nuclear burning CO<INF>2</INF> emissions.
    Dr. Miller. The Office of Nuclear Energy has not studied nuclear 
co-generation with coal or the potential use of nuclear power to 
``burn'' CO<INF>2</INF> emissions from coal power plants. There are 
other applications in which nuclear energy and coal can be used 
together, e.g., the use of nuclear heat to liquefy coal for 
transportation uses.

    Mr. Rehberg. That is all, Mr. Chairman. Thank you.
    Mr. Pastor. When we did this bill, it was enacted in Title 
III, there is a paragraph that says, within 60 days of 
enactment--a report included in the House report detailing an 
implementation and progress measurement plan for each funded 
Energy Innovation Hub.
    Sixty days would probably bring us, what, until about 
January? And I asked during the vote if we had received a 
report, and as of yet we have not received it for your hub.
    Mr. Miller. I am sorry, Congressman, I don't know about the 
report you are referring to, so I will have to get back to you. 
Several reports have been requested that relate to NE, but I 
don't know of one on the hubs.
    Mr. Pastor. Well, I will hand this to you.
    And there was another plan I think you had to submit to the 
committee. And as I prepared for it yesterday, I said, where is 
it so I can be ready to chat about this plan? And they said, we 
haven't received it yet. I think that was, what, how many days 
after--end of January I think it was due.
    Mr. Miller. The nuclear R&D plan of which you are referring 
to, that one was due at the end of January. It is embarrassing 
that you don't have that plan yet, and all I can tell you----
    Mr. Pastor. Well, it is hard to do a budget when you don't 
have these----
    Mr. Miller. All I can tell you is various offices in the 
administration are working feverishly on that plan, trying to 
get convergence on that plan. I had hoped to hand it to you 
today, but I do not have it in my possession to hand to you 
today. But I hope you get it really soon.
    Mr. Pastor. Soon. Couple of months? Days? Weeks?
    Mr. Miller. No, sir. Soon, I hope, is days to weeks, not 
months.
    Mr. Pastor. Days to weeks, okay. All right.
    Well, it is easier to work on a request on a budget when 
you know what the plans are, what you anticipate doing. And 
when we are just waiting for the plan and waiting for reports, 
it is very difficult to make decisions that will take us into 
the next fiscal year. So I just would encourage you as quickly 
as you can to bring it forward, because we are going to 
conclude the hearings probably the week after we return from 
the Easter break, and we will start looking at various requests 
from the Department of Energy. And so the later we wait, the 
more difficulty we are going to have in giving you a bill----
    Mr. Miller. Understood.
    Mr. Pastor [continuing]. That is fair to you. Rodney.
    Mr. Frelinghuysen. The scientific integrity of the review 
of nuclear waste alternatives is important to the committee, 
obviously. Last year Congress included statutory text that the 
Blue Ribbon Commission should, and I quote, ``consider all 
alternatives to nuclear waste disposal,'' end of quotation 
marks. The charter of the Commission seems to include all 
alternatives. Currently that is our understanding.
    The fiscal year 2011 budget request includes $45 million, 
$36 million above fiscal year 2010, for the Used Nuclear Fuel 
Disposition program. This program lists a broad set of 
activities in its proposals, including, and I quote, ``rapid 
response or increase from the proposed Blue Ribbon 
Commission,'' end of quotes, and, and I quote, ``a 
comprehensive understanding of the current technical basis for 
geological disposal of nuclear spent fuel and high-level 
waste,'' all within quotation marks.
    Is it fair to say that this program will be investing in 
research to understand all alternatives to nuclear waste 
disposal?
    Mr. Miller. Thank you for that question.
    The R&D program that we have in place, are planning--
assuming whatever Congress decides--in NE will include a broad 
range of potential disposal pathways. And so starting in 2011, 
we are looking at lots of different geologic media in which 
high-level waste might be stored. Now, having said that, of 
course, we are also going to receive recommendations from the 
Blue Ribbon Commission, and that clearly will inform the future 
of the direction which we go, but in the meantime, we are 
looking at a broad range of media.
    Mr. Frelinghuysen. Yucca Mountain, to the committee's 
understanding, should be on that list. Is that your 
understanding?
    Mr. Miller. When we discuss this issue, we are talking 
about salt, we are talking about basalt; we are not talking 
about sites.
    Mr. Frelinghuysen. I understand there are a lot of 
different sites, but is it your understanding that Yucca is 
still on the radar screen as a potential disposal site?
    Mr. Miller. No, it is not on the radar screen. The 
President and the Secretary have decided that that is not a 
path forward for final disposal of waste. So, no, that 
particular site is not.
    Mr. Frelinghuysen. The Office of Civilian Radioactive Waste 
Management of which I spoke in my opening remarks is moving its 
functions to your office. Can you tell us a little bit about 
what is happening there? The people that have been working in 
this program, I am sure we could come up with a better term 
than ``surplus.'' I mean, just looking at what has been done, 
obviously you have people with a vast amount of experience. And 
I assume that institutional memory is something which we want 
to retain. What are your plans?
    Mr. Miller. Sir, when we are looking at the 2011 budget 
request--and, of course, it still all depends on what is 
appropriated--our plan is to look at the skill mix that had 
been funded by the RW program, for example, geochemists, 
geologists, people who do computational modeling of flow-
through media, to look at that mix and to try to move 
appropriate personnel into NE in order to fulfill its 
requirements under the Nuclear Waste Policy Act.
    So we are going to have several jobs. One is to do R&D, 
which is what we are talking about now, in NE. We are proposing 
to be responsible for the so-called ``standard contracts'' and 
administering those, and then the Nuclear Waste Fund. All three 
of those previous activities that had been managed at RW, the 
proposal is to move all of those to NE, so it includes that R&D 
that you are talking about.
    Mr. Frelinghuysen. So there is a separation afoot. So are 
you going to take a look at that to see whether some of these 
people can be retained?
    Mr. Miller. Yes.
    Mr. Frelinghuysen. So that is what you are telling us, that 
these people are going to be involved in some way, perhaps.
    Mr. Miller. I can't candidly tell you all of the people who 
had been involved will be included, no. I can't say everyone, 
but I can say we certainly are going to look at the 
appropriations, what the Congress has approved, and that which 
we are able to support within the budget, we certainly are 
going to look at that.
    Mr. Frelinghuysen. If there is a geological solution here, 
I would hope we do our level best to make sure that people with 
substantial knowledge--getting way beyond the billions of 
dollars that have been invested, certainly we would want to 
retain those individuals, not cast them into the wind 
somewhere.
    Mr. Miller. I share that sentiment.
    Mr. Frelinghuysen. I am glad to hear you say that.
    Thank you, Mr. Chairman.
    Mr. Pastor. Mr. Secretary, I just want to make a point here 
that as we were the writing the bill and had the bill go 
forward with the process in the House and the negotiations with 
the Senate, and finally the conference and signed by the 
President, all alternatives for nuclear waste disposal, at 
least the intent of the House and the Senate as they provided 
the money for the Blue Ribbon Commission, was that all 
alternatives meant consideration of Yucca Mountain. So I just 
highlight it to you so that you can reference that the 
congressional intent for the Blue Ribbon Commission was that 
all alternatives meant that Yucca Mountain would be also 
included in all the considerations of the Blue Ribbon 
Commission.
    Mr. Miller. I understand.
    Mr. Pastor. Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman.
    Welcome. Thank you for what you are doing. I appreciate 
what the administration is doing with regards to nuclear 
energy.
    I see you are from Chicago. I am not too far away in 
northeast Ohio, Youngstown area, Akron.
    One of the issues, as I am just reading through and 
thinking about how important nuclear energy is and how much of 
the supply chain over the years we have lost to other 
countries, I only have one question at this point, and that is, 
I just want to ask, what do we need to do from the legislative 
side to help regrow our supply chain and the manufacturing 
component of the spin-off, the ripple effect that nuclear 
energy will provide? I think even if we do ramp up rather 
quickly, a lot of the components are going to be exported to 
other countries in the short term. But how do we ramp up, how 
can you help us ramp up, and what can this committee do to help 
our country ramp up so that the Chicagos and Youngstowns and 
Akrons of the world can benefit from this, even if they don't 
have a facility in their community?
    Mr. Miller. Thank you.
    So first with the reactors for which we are requesting 
authority for loan guarantees as well as the loan guarantees 
that we have just announced, those vendors that are providing 
those reactors have discussed with us about where are they 
going to get the components that they are using and the 
workforce that they are using in building the plants, and they 
expect the majority of them to be from here, from the United 
States. Some of those companies--for example, AREVA is actually 
building facilities within the United States. So we expect 
those new plants to have a significant number of U.S. 
components in them.
    And then the second one is the small module reactors, which 
I am excited about as a possibility for getting the United 
States back into the game of actually being vendors for power 
reactors. And there, as I said in my opening comments, we hope 
to have reactors that are built in the U.S. with American 
vendors again.
    Now, there are American vendors as partners in these larger 
companies that are building the Gen III+ reactors, but these 
will be a new start for the United States in the nuclear 
business.
    If it proves to be something that industry wants to deploy, 
you know, we can't overpromise anything, but there is enough 
hope there that we ought to do what we can to make sure we see 
for sure whether we can make these things go.
    Mr. Ryan. I know it wouldn't be necessarily through the 
Department of Energy, but are there tax incentives that we can 
help on the private sector side to help let them know that it 
is okay to start making some of these investments? Because a 
lot of these foreign countries do provide a level of subsidy 
for that kind of thing.
    Mr. Miller. It is out of my depth. I don't know much about 
tax incentives.
    Mr. Ryan. You have a powerful voice in Washington. Loan it 
to the cause.
    Mr. Miller. We certainly can think about it and get back to 
you, but I am not prepared right now to talk about it.
    Mr. Ryan. Just if you can express the need for those kinds 
of things. Thank you.
    Thank you, Mr. Chairman.
    Mr. Simpson. Thank you, Mr. Chairman.
    As far as Yucca goes--I don't even want to talk about 
Yucca, it is what it is--but you are going to send up a letter 
or have sent up a letter requesting reprogramming money; is 
that right? I understand it goes into NE?
    Mr. Miller. No.
    Mr. Simpson. Where does it go?
    Mr. Miller. You are talking about for 2010 now?
    Mr. Simpson. Yes.
    Mr. Miller. In 2010, my understanding is a letter was sent 
to Congress informing Congress of what is planned for the 2010 
activity that had been allocated or appropriated for Yucca 
Mountain. It is our understanding that the senior leadership of 
DOE is working with the RW leadership and the general counsel 
and CFO on this whole issue of how to close out, if you will, 
the Yucca Mountain activity, but the 2010 activity is not an NE 
part. We start in 2011 is when the responsibility shifts to us.
    Mr. Simpson. EM takes over Yucca Mountain at that time, 
right?
    Mr. Miller. The plan is that EM would have the physical 
facility at Yucca Mountain, and NE would have responsibility 
for the Nuclear Waste Policy Act and implementing that act.
    Mr. Simpson. You are not aware of what the reprogramming 
request is to use those funds that were originally going to be 
used for the licensing process? They are going to have to 
reprogram those if they want to use them for something else.
    Mr. Miller. Correct.
    Mr. Simpson. But you are not sure what the proposal is for 
that.
    Mr. Miller. Well, there is a letter that was sent that 
there was intent to reprogram, and there was intent to close 
out the program, to work with employees, to work with the site 
records--for example, retention of all the records. So that has 
been sent, that is my understanding.
    Mr. Simpson. Okay. One other thing. This committee has been 
very supportive of--and one of the things I don't think we have 
spent enough money on in years gone by is infrastructure. If we 
are going to retain and bring the best research scientists to 
work at our national labs, we have to have the scientific 
facilities for them to work in. And as you know, out in Idaho, 
some places were in old grocery stores and garage doors and 
everything else. But the committee has been very supportive of 
increasing that budget for infrastructure improvements.
    It looks like in your NE research and development budget, 
it is kind of a makeover of the old budget with some new 
programs, new initiatives, such as the Small Module Reactor 
program. These new initiatives may add to the overall research 
and development effort and an increase in demands on the 
infrastructure.
    Last year the committee put in $173 million last year into 
the NE budget, the infrastructure budget, in Idaho, which, as 
you know, they have done some great work out there in building 
labs and equipment and so forth. This year's request is $10 
million less. Does this request fully support the upgrades to 
the scientific and testing capabilities at the INL that may be 
needed to implement the expansion of the new NE programs?
    Mr. Miller. Thank you, Congressman. This is, again, an 
extremely interesting question.
    I had an opportunity to be in Paris for the conference that 
President Sarkozy had on civil nuclear energy, to talk to my 
Japanese, Russian and French colleagues about investment in 
nuclear energy R&D, and there is no question that ours isn't up 
to what some other countries invest in nuclear energy R&D. But 
having said that, only about 10 years ago we were at zero, and 
we have come up to now a request of $500 million. I think that 
is pretty darn impressive with what we have done.
    So as we look at this balance of $500 million, and we 
struggle with the balance between infrastructure, intellectual 
capability, and people who are doing research and theory and 
computation and experiment, the experimental facilities, they 
have what they need, it is not easy to make that balance. We 
have done the best we can. We think in the future the balance 
is likely to move toward investment more in infrastructure.
    Of course, it would be nice if we had a much greater 
budget, but we are here to defend the President's budget. We 
think it is a solid budget. And we have spent considerable time 
trying to think through this thing of infrastructure and people 
and students in the next generation, so it is the balance we 
came up with. I think it is a strong budget, and I am 
supporting it.
    Mr. Simpson. Couple of quick questions. On the Advanced 
Test Reactor, it is 40 years old. Last year we fenced off $12 
million for the ATR Life Extension. How much is being requested 
in the fiscal year 2011 for the Life Extension project at the 
ATR?
    Mr. Miller. Well, the ATR is a component, as you point out, 
of the facilities infrastructure budget, Idaho National 
Laboratory. I don't have the exact number with me for what 
fraction of that is for ATR. We can get that number for you.
    [The information follows:]

    Dr. Miller. The Fiscal Year 2011 budget request includes 
approximately $12.3 million to continue ATR LEP activities. ATR LEP 
projects will continue to focus on reconstitution of the safety basis 
and replacing aging components to improve operational reliability and 
support the growing demand for this world-clss irradiation research and 
test reactor. This investment will help extend the life of this 
national asset in its support of national security, energy, and 
material research missions, and prepare for the Core Internal Changeout 
scheduled in the 2014-2015 timeframe.

    Mr. Simpson. Okay. In Oak Ridge, Congress provided $10 
million for the Radiochemical Engineering Development Center at 
the Oak Ridge National Laboratory. Did this investment complete 
the maintenance for that facility? Because none has been 
requested this year, I understand.
    Mr. Miller. Yes. Thank you for that question also, 
Congressman Simpson.
    So in the best of all worlds, we would also be investing in 
facilities at Oak Ridge National Laboratory, and we would be 
investing in facilities at other national laboratories. I think 
that the overall facilities is appropriate for the size of the 
program of $500 million. But of course, yes, it would be nice 
if we could also invest in those. But we think we have done the 
right balance for the size of the budget.
    Mr. Simpson. But as far as the Radiochemical Engineering 
Development Center, it doesn't need any additional money for 
its maintenance, or is it just that there was not any to 
request this year?
    Mr. Miller. They could use money, it just didn't make it in 
the cut of our requests.
    Mr. Pastor. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman.
    General, how are you?
    Mr. Miller. Fine, sir. How are you?
    Mr. Fattah. I am doing well.
    Senator Webb and Senator Alexander have a proposal before 
the Senate, I have offered it as a companion bill in the House, 
that would essentially launch a nonincremental approach to 
trying to jump-start or restart our pursuit of nuclear energy 
focused around small module reactors--there are some other 
features to the bill, obviously, and investments in solar and 
some other renewables, but really the main focus is on nuclear. 
You have been doing some work. The 2005 act obviously allowed 
for investments in some next-generation plants, and I note that 
a Pennsylvania company--I represent Pennsylvania--Westinghouse 
has been one of the competitively awarded grants under that. 
Today, Bill Gates has announced a major partnership with 
Toshiba to move forward on some small nuclear reactors. So I 
know that we are all headed in the right direction, the compass 
is correct, I mean, the country is moving.
    Gallup yesterday released a poll that shows 62 percent of 
Americans believe that nuclear has to be a central part of the 
energy mix going forward. Unfortunately, over the last 30 years 
we have had a dearth of energy, if you will, around nuclear, 
but things seem to be starting to be aligned in the right 
direction.
    So your proposals, in terms of this year's budget, if the 
committee was looking for where there are additional needs 
relative to where we would like to get to--and in keeping with 
your responsibilities to OMB and all of that--are there areas 
that you would think that additional investments could be aptly 
utilized? The administration should be congratulated on getting 
the first loan guarantee deals out, and I have been a major 
proponent of the loan guarantee program, but I would be 
interested in any answer that could be forthcoming about what 
is left to be done that is not yet represented in the request.
    Mr. Miller. Thank you very much, Congressman, for that 
question. I believe the President's budget supports the 
priorities of the Office of Nuclear Energy.
    Mr. Fattah. I support the President's budget, and 
otherwise. I just wanted to get your expertise since there 
seems to be a growing consensus both among the public and among 
policymakers--and obviously Secretary Chu testified before this 
committee last year and said absolutely nuclear is going to be 
a significant part of what we are doing. And we have been 
outpaced by countries like France and others who have moved 
quickly. So let me thank you for your response.
    Mr. Miller. Thank you very much, sir.
    Mr. Rehberg. Thank you, Mr. Chairman.
    Normally we, as elected officials, like to see programs end 
because they never really do, but in the case of Yucca 
Mountain--again, I don't want to beat a dead horse, but we have 
spent 25 years on it and $10 billion, so we ought not just 
flippantly ignore the closure or the discounting it as a 
solution.
    Is anything being done that cannot be undone by the next 
administration, Republican or Democrat, that might have a 
different philosophy? Because I haven't heard any objective 
reason as to why it is unacceptable; most of it has been 
subjective. And I respect the right of the President and/or the 
Secretary to make that determination, but that doesn't 
necessarily mean that we have to agree. We might want to undo 
it in the future.
    My question is, are you doing anything at the site that is 
going to preclude a different philosophy in a different 
administration?
    Mr. Miller. Thank you very much.
    Let me first again say that the President and Secretary 
have stated that Yucca Mountain is not going to be pursued as 
the repository. And let me also repeat that I said that we are 
doing everything to retain all of the records. We are required 
by law to retain written as well as physical records.
    And then let me also say that now that we are moving in a 
different direction, Yucca Mountain was selected, down 
selected, during a period of time in which the country had 
basically decided that we weren't going to pursue nuclear 
energy, we weren't going to build any more plants, we were 
going to allow those plants that exist to live out their life, 
we were going to take the used fuel, we were going to put it 
away, we were going to close it up, and that was the end. Well, 
this is a new world now, and it is a new opportunity for us.
    Mr. Rehberg. I think that explains, though, why there was a 
limitation on the amount that was going to be able to be 
restored. And if I remember correctly, the concept was that 
there should be a place in the West and a place in the East.
    There will always be a necessity to do something with 
waste, and it just seems like we have wasted a lot of years to 
change directions. And so, trust me, you don't have to repeat 
the company line, I got it, you said it three times already, I 
understand that, but my question is is anything being done at 
the site--it would be like taking a tank and filling it with 
cement--are you doing something at the site that cannot be 
undone?
    Mr. Miller. Not that I know of.
    Mr. Rehberg. Thank you.
    Mr. Pastor. I believe I heard this, and you can correct me 
if I am wrong, that in the reprogramming request, the letter 
that is here that you think--it is your opinion that some of 
that money may be used for the archiving of the documentation 
as a result of Yucca Mountain?
    Mr. Miller. That is my understanding.
    Mr. Pastor. And in 2011, then, you will have that 
responsibility.
    Mr. Miller. That is right.
    Mr. Pastor. So in your budget for 2011, are there monies 
that you have in the budget that----
    Mr. Miller. Yes, I understand. The answer is that there are 
no dollars actually specified in the budget for that purpose, 
but it is our intent to fulfill that responsibility in 2011. It 
will be part of our responsibility. I don't think we have 
actually written it down in so many words, so if it requires us 
to come back and discuss it with the committee, we will. But 
that responsibility just has to be carried out by law.
    Mr. Pastor. That is what I am getting to. In your budget, 
to see a line item that says to continue the archiving, and it 
was difficult to find. We know that that is something that 
needs to be done, and it is already going to start, hopefully, 
in the next couple of months. I don't know how much money from 
the reprogramming is going to go to that effort. And we agree 
with you that the archiving is very important, but we are 
trying to determine how you are going to accomplish that in 
2011. And I guess that is where I want to get to.
    Mr. Miller. Mr. Chairman, I am happy to get back to you in 
detail as to how much we believe that will cost. And we have 
every intention of doing it in 2011.
    [The information follows:]

    Dr. Miller. The Department is committed to preserving the relevant 
scientific knowledge gained from the Yucca Mountain Project. Records 
generated by the OCRWM in the course of activities at Yucca Mountain 
are managed and archived in accordance with the requirements of the 
Federal Records Act and related regulations.

    Mr. Fattah. Mr. Chairman, can I just say something, one 
thing on Yucca?
    Mr. Pastor. Sure.
    Mr. Fattah. I understand the concerns of my colleagues, and 
I share many of them. I do want to say that we have arrived at 
a point in our country where there is cynicism and there are a 
lot of concerns. Politicians run for office, they make 
commitments. The President made a commitment not to proceed 
with Yucca Mountain. And so we, I think, understand and should 
understand that the administration is following through on a 
commitment that was made to the American people about what the 
policy would be. So even though there should be appropriate 
archival, we should also understand that this policy was 
ratified in an election that took place in 2008 vis-a-vis what 
we would do relative to Yucca Mountain.
    Mr. Pastor. What activities will you have with the Blue 
Ribbon Commission?
    Mr. Miller. My assigned role in the charter is to respond 
to any requests or any assistance that they ask of us. So we 
are just responding to any information they ask of us.
    Mr. Pastor. And do you have a line item that allows you to 
do that, or will you take from this program or that program? 
How do you anticipate--I don't know what the cost is going to 
be, so I ask that question.
    Mr. Miller. In fiscal year 2010, there was $5 million 
requested in the RW budget request, and so there isn't any in 
our request for 2011. The hope is that the 2010 will be enough, 
the $5 million will be enough. If not, we will have to work 
with everyone to try to make sure they are supported, and that 
people understand what we are doing to support them, and from 
what budget we are supporting them. But we have to continue to 
respond to their requests.
    Mr. Pastor. And you are right, you are correct, the $5 
million was aired, and so was the language, ``All alternatives 
will be looked at.''
    What was the anticipation of the administration in terms of 
how long this Blue Ribbon Commission was going to exist and be 
funded by the $5 million?
    Mr. Miller. Well, I think the $5 million request came 
considerably before the charter was established for the Blue 
Ribbon Commission, but the charter says 18 months, an initial 
report; 24 months, the final report. That is what is in the 
charter.
    Mr. Pastor. And where are they at in terms of organizing 
and beginning deliberation?
    Mr. Miller. So the Commission has been announced, the 
members have been announced. The first meeting is this week, 
the 25th and 26th, I believe. So they are off and running.
    Mr. Pastor. I was going to ask you if your opinion was that 
they would do the work for 18 months, but I know you have to 
stay with the charter language, so I won't ask you the 
questions.
    Mr. Miller. Thank you, Mr. Chairman.
    Mr. Pastor. What activities involving the Nuclear Waste 
Policy Act will your organization support in fiscal year 2011?
    Mr. Miller. Three items I would mention. One is our 
responsibility for what is called the standard contracts, which 
basically means United States Government takes responsibility 
for used fuel and understands it takes responsibility for used 
fuel. The second is the Nuclear Waste Fund. And the third is 
the broad R&D responsibility for looking at a disposal site, an 
ultimate disposal site, for used fuel.
    Mr. Pastor. Rodney.
    Mr. Frelinghuysen. I talked a little bit earlier about the 
broad list of activities that relate to the Used Nuclear Fuel 
Disposition Program, and I went over some of them. One of the 
new activities is to inform policy decisionmaking regarding the 
management of nuclear spent fuel and waste. What mechanism can 
you tell us, formal or informal, will be used to inform the 
Commission?
    Mr. Miller. Again, we believe our responsibility is to 
respond to requests from the Commission, not proactively inform 
them. So we will respond to requests that the Blue Ribbon 
Commission comes to us with. We will coordinate the requests 
with, for example, EM, which certainly has----
    Mr. Frelinghuysen. You have a lot of information at your 
command, a lot of institutional memory here. You are going to 
let them go and sort of reinvent the wheel here? There is quite 
a lot of information that has been gathered that would be, I 
think, extremely beneficial to their deliberations, 
determinations, and perhaps their eventual recommendations.
    Mr. Miller. Well, we believe we will have the resources to 
respond to the requests we will get from the Blue Ribbon 
Commission from the point of view of tapping the scientific 
community as well as the Federal workforce.
    Mr. Frelinghuysen. Let me tackle, and let me do it 
respectfully of Mr. Fattah, for whom I have worked, this whole 
notion that this decision to close Yucca Mountain has somehow 
been ratified by a Presidential election. I mean, before we get 
too excited about the building of new nuclear reactors and, 
should we say, smaller versions, somebody needs to be focusing 
on what is going to happen to what is produced here. Either it 
is going to have to be reused, or it is going to have to be 
restored, or we are going to have to maintain it at a variety 
of different sites.
    You are familiar with all the things. You spent many years 
at Los Alamos. I mean, there is a lot going on out there. So I 
sort of worry here that we are--the whole issue of cradle to 
grave, we talk about the cradle because that is somewhat 
politically attractive, but we don't talk about the grave. So I 
am not sure I need a reaction from you, but I feel very 
strongly about this, and I don't view it in a partisan way. 
Huge amount of investment here, ratepayers, all sorts of things 
that people are counting on for some sort of a solution.
    I want to get your comments on--I assume you joined Deputy 
Secretary Poneman in Paris. I looked at his statement. 
Obviously we are all concerned about nuclear proliferation. 
What did you take away from that conference that related to the 
whole issue of financing? I have already commended the 
President for what he is doing. And President Sarkozy is 
looking for some sort of resources from the International 
Monetary Fund, but what did you come away with, the sort of 
bigger picture of financing?
    You look at some of our European allies, they are way ahead 
of the curve. And let me say parenthetically, you talk about 
vendors, we have sort of a Buy America policy around here, but 
my constituents often tell me at town meetings, we don't make a 
lot around here. I know there is a notion that we have some 
great companies that are involved, as Congressman Simpson has 
mentioned, but a lot of the stuff that we are looking for, the 
components, actually we don't make anymore. We have a workforce 
that is aging. I guess part of that conference focused on how 
we have a trained workforce for the future for whatever we 
build.
    What were some of your takeaways from Paris besides the 
securing of nuclear materials and smuggling and things which 
would obviously have catastrophic consequences? But did you 
come away with anything on the financing picture, what they are 
doing that perhaps we could emulate, or are they struggling the 
same way we are in terms of balancing risk of the companies, or 
even others that you mentioned?
    Mr. Miller. The conference that you are referring to was an 
international conference; it didn't focus at all on the French 
or the French experience. There were 65 countries represented 
from all over the world. It was actually more focused on 
aspiring nuclear countries than it was on countries such as 
France or Japan. There were several roundtables that discussed 
various aspects of nuclear energy. The financing part focused 
much more on how countries that are emerging that desire 
nuclear energy, how would they go about financing their first 
purchases of nuclear energy. So the financing focused on the 
World Bank, and it focused on those kinds of instruments that 
such countries would use. It didn't focus so much on loan 
guarantees or the kind of thing that we are looking at here in 
our country.
    Another takeaway had to do with infrastructure. It is 
critically important that these countries understand that 
buying a reactor means also buying into the equivalent of a 
Nuclear Regulatory Commission, buying into all of the 
infrastructure associated with education of a workforce.
    Mr. Frelinghuysen. And disposal.
    Mr. Miller. And disposal. And disposal.
    So I think a takeaway for me, I think, is many countries 
were enthusiastic, some countries were quite enthusiastic, but 
other countries I thought left with a little realism about what 
they would be buying into if they were to become part of the 
nuclear energy world.
    Mr. Frelinghuysen. I am excited about the potential of what 
we could do in this country. I think we all are. I mean, that 
is nonpartisan, bipartisan, and I commend the administration. 
It just takes so long to get anything done around here. I mean, 
it is not just you, there is everything. The Nuclear Regulatory 
Commission, you have got all sorts of standards that have to be 
met, obviously. Those are important. But we are raising an 
expectation here, and I worry about our ability to deliver when 
we see what is happening in China with their progress--of 
course, they can do just about anything they want because they 
seem to accelerate, but in reality they will face disposal 
issues as well. They may be able to moderate the populace in 
terms of their apprehensions because of the nature of their 
government. But I appreciate your reaction to my question. 
Thank you.
    Thank you, Mr. Chairman.
    Mr. Pastor. I am just going to announce that probably at 
3:45, 4 o'clock, we have three votes. So what I would like to 
do is not keep you any longer for this series of votes, so we 
will try to get as many questions and comments.
    Mr. Fattah. This is my last question or comment for the 
day.
    Mr. Pastor. Mr. Fattah.
    Mr. Fattah. I think the Ranking Member should understand 
that I actually support, I think almost in total, his view 
about Yucca Mountain, that there was a major investment, we had 
agreed that is where the depository would be. I supported that 
in every way. That needed to be demonstrated over my years 
here.
    I am just saying that it is not a surprise that we are here 
at this moment. There was an election contest in which this was 
a subject matter, and which the winning candidate said that the 
country was going to go into a different direction. So inasmuch 
as we are concerned about policy, we are also concerned about 
the American public not being cynical about the political 
process and how we go about moving things forward.
    So even though I don't agree that we should move away from 
Yucca Mountain or that it would not have been the appropriate 
place, I just wanted to put on the record that it is not by 
happenstance that we have arrived at this moment, that there is 
a process that we all could see that led us to where we are 
right now. Thank you.
    Mr. Pastor. Thank you.
    In some of the comments and some of the questions from the 
Members here, you probably got the sense there is some 
frustration in terms of over the years we have been here, you 
have seen administrations come, or you see Secretaries come in 
the same administration, and priorities change, and sometimes 
very quickly. And I will give you an example, the hydrogen fuel 
cell. A couple years ago the hydrogen fuel cell was the mantra. 
And then we have now a new administration, a new Secretary who 
said, well, I don't think we ought to go there, but yet we 
invested money, and people invested time.
    I ask that question because here we have seen changes come, 
and sometimes very quickly, after we have spent a lot of money 
in doing the research. As I looked at your budget, you have a 
broad research agenda. When I looked at it, I said, wow, this 
is an aggressive agenda. But then I began to wonder, are we 
investing a lot into many things, and whether, knowing how 
things change, that maybe this Secretary ought to concentrate 
on a few things so that we can fund them for a period of time 
to make sure that the money is used more effectively. And so I 
would ask you to talk about your budget agenda in the context 
of my comments.
    Mr. Miller. Yes. Thank you.
    So as I mentioned before, we went, in our country, from 
zero funding in nuclear energy R&D where now we have a nice 
healthy program of research. And my observation is the real 
competitive advantage we have is our intellectual capability. 
The national laboratories, the universities, small companies, 
we have some great capability here in our country, and we need 
to galvanize that in nuclear energy.
    So what we did in this budget is, first, there is one big 
component that talks about reactor designs, and it is both near 
term, all the way from loan guarantees through looking at 
reactor types that aren't that different, significantly 
different, but like the one that was mentioned before that Mr. 
Gates is investing in, the Traveling Wave Reactor. We have 
ideas at the laboratories that are somewhat like the idea he 
has. It is really important, I think, that that portfolio of 
reactor designs include both near-term activities and long-term 
activities where we engage this intellectual capability that we 
have in this great country of ours.
    And then on the other side we are talking about fuel cycle. 
We are looking at opportunities to look at how can we use this 
used fuel and get more uranium utilization out of this used 
fuel? What are the ways in which we might be able to do that? 
And we have some time owing to the safety of dry cask storage--
we have some time to look at that. And we are engaging some 
really smart people to start thinking again about that.
    And then in the middle, there are just so many things that 
cross. Structural materials. The material problems we are 
having in some of our reactors owing to embrittlement is 
because we haven't stopped to basically understand the 
materials issues associated with some of these reactors.
    So we think we have thought this through very carefully of 
reactor designs, fuel cycles, and cross-cutting technologies 
like structures, like fuels, that go across these so that we 
can position the United States so that we won't be here again 
looking back and saying, well, the whole world is ahead of us. 
We should leapfrog this world, And we have the capability of 
doing it. That is what our investment is intended to do.
    Mr. Pastor. Thank you.
    Mike.
    Mr. Simpson. Mr. Chairman, just a couple of things. The 
Blue Ribbon Commission meets Thursday and Friday?
    Mr. Miller. Yes, sir.
    Mr. Simpson. Is that open to the public; i.e., could I go?
    Mr. Miller. Let's see, if I remember correctly, for the 
agenda, a portion of the meeting is open to the public. But the 
agenda is on the Federal Register, so it says which ones are 
public and what part is public and what part is not.
    Mr. Simpson. Okay. Thank you.
    Has or will the administration submit legislation for 
amending the Energy Policy Act of 2005? And will that include 
waste confidence?
    Mr. Miller. Okay. When you first asked the question, I 
thought you were referring to the part that dealt with NGNP.
    Mr. Simpson. Well, that and the waste confidence issue.
    Mr. Miller. Okay. So on the legislation, as you know, 
Congressman, it deals with NGNP, has some verbiage in it that 
has kind of been overtaken by events. We need to get together 
soon in the administration to propose legislation that would 
correct some of those issues.
    I don't know of any discussion about waste confidence and 
legislation related to waste confidence. So that question kind 
of takes me by surprise, and I would have to think about that.
    Mr. Simpson. Well, take the message back that we need to 
legislate waste confidence. If we don't, we are going to bring 
the nuclear industry to a standstill, because if we don't have 
a permanent geological repository, you can't really say you 
have waste confidence. And the NRC is going to say--I am afraid 
anyway.
    Mr. Miller. I understand.
    Mr. Simpson. One other thing. The defense authorization 
bill reduced the GPP, the general plant project, limit from $10 
million to $5 million for NNSA labs in 2011. We supported a $10 
million limit in this committee because it actually gives more 
flexibility to the labs to do some of the projects, and I have 
seen the results of it out in Idaho with some of the things 
that they have done.
    Do you support keeping the GPP limit at $10 million for the 
non-NNSA labs?
    Mr. Miller. I do support that. And I believe Under 
Secretary Koonin said a similar thing for the Office of Science 
lab.
    Mr. Simpson. One last question. One of the very important 
programs that you are working on is the Light Water Reactor 
Sustainability program. Talk about the importance of that, the 
importance to our energy future, and what we hope to gain of 
that. And what are our 2011 goals for this program?
    Mr. Miller. First, if the existing fleet of 104 reactors, 
if the vast majority of them, let's say 100, have license 
extension for 60 years--which seems like it is going to happen, 
half of them already have been approved by the Nuclear 
Regulatory Commission--then in the year 2029, the first of 
those will go off line, their 60-year life will be over, and 
the last one in 2050. So that is 20 percent of our electricity 
that will go off line----
    Mr. Simpson. Of our green electricity.
    Mr. Miller [continuing]. And 70 percent of our green 
electricity will go off line. Most proposals or most 
predictions of Gen III reactor deployment and even small module 
reactor deployment, it will be very difficult to make up that 
complete loss of the existing fleet. And so we think it is in 
the country's interest to participate with industry on dealing 
with issues that the Nuclear Regulatory Commission will ask--if 
they were to ask for a further extension, a further license 
extension, up to, let's say, 80 years.
    And so there are aging issues, materials issues, issues 
related to nondestructive evaluation. How would you, for 
example, use instruments to go in a reactor, portions of a 
reactor, internals, to try to assess in real time what is the 
behavior, how is it aging?
    We think it is extremely important that the Federal 
Government participate in this when it is sure that it is the 
more long-term issues and the issues that go across reactor 
types, so that it is not getting into private things or 
proprietary things, that kind of thing, with industry. So we 
think the program is extremely important.
    Mr. Simpson. Thank you. And thanks for the job you are 
doing. I look forward to working with you on these important 
projects for Idaho and for the country.
    Mr. Pastor. Rodney.
    Mr. Frelinghuysen. In terms of our R&D, how would you 
characterize our position in terms of research on advanced 
nuclear concepts? We talked in a previous hearing about some of 
the things that are happening abroad and appear to be 
accelerating abroad. Where are we? And how do we strengthen our 
position vis-a-vis what others may be doing?
    Mr. Miller. We have some great ideas out there. I will just 
throw one out at you. A former colleague of mine--I used to be 
on the faculty at UC Berkeley--has an idea of using molten 
salt--that is not a brand new idea, but his approach is using 
molten salt with fuel elements that look like the fuel in NGNP. 
And it is a new concept of a reactor that really has a 
tremendous amount of potential. First, it could potentially use 
thorium as the fuel as opposed to uranium, which would greatly 
extend our supplies of nuclear fuel. Because it uses these 
tricell elements, it is probably going to get very high burn-
up, very high uranium utilization out of it, and you can do it 
at higher temperatures, higher efficiency.
    See, it is one of these ideas where it is a game changer, 
it is not just an incremental change. And under advanced 
concepts, that is the kind of thing we want to do is to look at 
real game changers, bright new ideas.
    Mr. Frelinghuysen. Are other countries looking at game 
changers as well? What do we know about other countries, what 
they are doing? We give credit to our scientists, but----
    Mr. Miller. I think, Congressman, we have been dealt a darn 
good hand, and the reason is we just have some really creative 
people, and we have the advantage or disadvantage, whichever 
way you want to say, of those other countries being kind of 
locked into decisions they have made. They have made long-
term----
    Mr. Frelinghuysen. We have made a few decisions we are 
locked into as well.
    Mr. Miller. That is true, but we do have some flexibility 
of some new ideas in which we could deploy something new 
without necessarily being constrained by having decided, for 
example, we are going to deploy a large liquid metal reactor by 
year 20-whatever. This flexibility we need to take advantage 
of, and advanced concepts is going to help us do that.
    Mr. Frelinghuysen. It may not be fair to say this, but we 
focused a little bit last week on the migration of some of our 
best minds abroad, I mean, literally establishing factories and 
technological centers, which I assume would be a critical mass 
for some pretty smart people; in other words, people we might 
have actually trained.
    Mr. Miller. In nuclear we are going to turn that around.
    Mr. Frelinghuysen. We are. You are giving us that vote of 
confidence?
    Mr. Miller. Yes, sir.
    Mr. Frelinghuysen. Well, on that note, thank you very much, 
Mr. Chairman. And that is for the record, too. Thank you.
    Mr. Pastor. What is interesting is that a couple of years 
ago we went to China, and we went to one of their--I guess 
equivalent to the lab in Beijing, and they were showing us the 
pebblebed reactor. And all the young scientists--when I first 
went in, I said, we are going to have a problem in the 
translation. That was my thought in terms of----
    Mr. Frelinghuysen. Everybody speaks English.
    Mr. Pastor. Well, they spoke excellent English, and they 
are all trained and graduated from universities here in the 
United States--MIT, Stanford, Berkeley. It was very interesting 
to see how before they may have stayed here, and you would have 
found them working in industry here or labs here or 
universities here, but the migration now is that as we have 
trained them and educated them here, they have decided to go 
back to their home and now are doing well in terms of--in this 
case in China. So it was very interesting.
    Mr. Secretary, thank you very much. I look forward to 
seeing you again with the plan in hand.
    Mr. Miller. Yes, sir.
    Mr. Pastor. And don't forget to tell the Blue Ribbon 
Commission that all alternatives include Yucca.
    Thank you very much for being here.
    This hearing is adjourned.

    [GRAPHIC] [TIFF OMITTED] T1780A.011
    
    [GRAPHIC] [TIFF OMITTED] T1780A.012
    
     [GRAPHIC] [TIFF OMITTED] T1780A.013
    
     [GRAPHIC] [TIFF OMITTED] T1780A.014
    
    [GRAPHIC] [TIFF OMITTED] T1780A.015
    
    [GRAPHIC] [TIFF OMITTED] T1780A.016
    
    [GRAPHIC] [TIFF OMITTED] T1780A.017
    
    [GRAPHIC] [TIFF OMITTED] T1780A.018
    
    [GRAPHIC] [TIFF OMITTED] T1780A.019
    
    [GRAPHIC] [TIFF OMITTED] T1780A.020
    
    [GRAPHIC] [TIFF OMITTED] T1780A.021
    
    [GRAPHIC] [TIFF OMITTED] T1780A.022
    
    [GRAPHIC] [TIFF OMITTED] T1780A.023
    
    [GRAPHIC] [TIFF OMITTED] T1780A.024
    
    [GRAPHIC] [TIFF OMITTED] T1780A.025
    
    [GRAPHIC] [TIFF OMITTED] T1780A.026
    
    [GRAPHIC] [TIFF OMITTED] T1780A.027
    
    [GRAPHIC] [TIFF OMITTED] T1780A.028
    
    [GRAPHIC] [TIFF OMITTED] T1780A.029
    
    [GRAPHIC] [TIFF OMITTED] T1780A.030
    
    [GRAPHIC] [TIFF OMITTED] T1780A.031
    
    [GRAPHIC] [TIFF OMITTED] T1780A.032
    
    [GRAPHIC] [TIFF OMITTED] T1780A.033
    
    [GRAPHIC] [TIFF OMITTED] T1780A.034
    
    [GRAPHIC] [TIFF OMITTED] T1780A.035
    
    [GRAPHIC] [TIFF OMITTED] T1780A.036
    
    [GRAPHIC] [TIFF OMITTED] T1780A.037
    
    [GRAPHIC] [TIFF OMITTED] T1780A.038
    
    [GRAPHIC] [TIFF OMITTED] T1780A.039
    
    [GRAPHIC] [TIFF OMITTED] T1780A.040
    
    [GRAPHIC] [TIFF OMITTED] T1780A.041
    
    [GRAPHIC] [TIFF OMITTED] T1780A.042
    
    [GRAPHIC] [TIFF OMITTED] T1780A.043
    
    [GRAPHIC] [TIFF OMITTED] T1780A.044
    
    [GRAPHIC] [TIFF OMITTED] T1780A.045
    
    [GRAPHIC] [TIFF OMITTED] T1780A.046
    
    [GRAPHIC] [TIFF OMITTED] T1780A.047
    
    [GRAPHIC] [TIFF OMITTED] T1780A.048
    
    [GRAPHIC] [TIFF OMITTED] T1780A.049
    
    [GRAPHIC] [TIFF OMITTED] T1780A.050
    
    [GRAPHIC] [TIFF OMITTED] T1780A.051
    
    [GRAPHIC] [TIFF OMITTED] T1780A.052
    
    [GRAPHIC] [TIFF OMITTED] T1780A.053
    
    [GRAPHIC] [TIFF OMITTED] T1780A.054
    
    [GRAPHIC] [TIFF OMITTED] T1780A.055
    
                                         Wednesday, March 24, 2010.

              DEPARTMENT OF ENERGY FISCAL YEAR 2011 BUDGET

                                WITNESS

HON. STEVEN CHU, SECRETARY, U.S. DEPARTMENT OF ENERGY
    Mr. Pastor [presiding]. The committee will come to order. 
Good afternoon, Dr. Chu. Good afternoon, everyone. We have 
before us today Secretary of Energy, Dr. Steven Chu. He is here 
to present the administration's fiscal year 2011 budget request 
for the Department of Energy. Mr. Secretary, congratulations on 
your first year and we look forward to your insights into this 
budget request.
    As the Nation continues to discuss the merits and structure 
of a comprehensive energy policy for the 21st century, the 
Department of Energy must take a leadership role in the 
transformation of our energy sector. I firmly believe and 
support the principle that innovation, technology, and research 
and development should be at the very core of our national 
effort to this end. I do believe that we can invent and invest 
our way out of our energy problems and that government should 
help lead the way. This is not to say that government is the 
answer. This is to say that government's role must be 
structured to complement the role of the private sector.
    As the debate over the policies and initiatives for smarter 
energy consumption and a more robust energy mix continues, the 
ultimate outcome of that discussion will be irrelevant if 
strong leadership and fundamental management reforms are not 
forthcoming at the Department of Energy. This committee has 
been front and center in pushing the Department toward more 
robust management of its portfolio, including project 
management and cost estimating.
    Mr. Secretary, we hope you will take a strong leadership 
role in transforming these practices at the Department to 
ensure that the taxpayer gets the most of their hard-earned 
money. I would note that over 60 percent of the Department's 
funding is associated with maintaining and securing the nuclear 
stockpile, and cleanup associated with the legacy of 
radioactive waste.
    While I understand that the Nuclear Posture Review is 
further delayed, this committee continues to insist on a 
comprehensive and enduring policy foundation for our nuclear 
arsenal.
    I am hopeful that this administration will answer the 
questions posed by the subcommittee in 2007, placing the 
requirements of its weapons complex in the context of our 
future military requirements.
    This subcommittee continues to have concern about the 
President's decision regarding Yucca Mountain. Given the 
absence of a repository will affect not only our energy 
portfolio for the future, but also the cleanup of radioactive 
waste at DOE sites and disposal of spent fuel from military 
operations. Several of these sites are represented by members 
on this subcommittee. So please rest assured that we intend to 
be involved in any decisions affecting the disposal of spent 
nuclear fuel and defense waste.
    Mr. Secretary, I look forward to hearing from you today 
about the fiscal year 2011 budget request, how you will address 
the energy and national security challenges we face, and how 
your management plans will ensure efficient planning and 
execution. I expect we will be working together to address the 
challenges ahead, but I also again remind you that cooperation 
and respect is a two-way street. We will continue to have the 
dialogue. There will be differences and there will be 
concurrences. So we look forward to working with you in a 
cooperative effort to ensure the best budget result.
    Mr. Secretary, I would ask that you ensure that the hearing 
record responses to the questions for the record and any 
supporting information requested by the subcommittee are 
delivered in final form to the subcommittee no later than 4 
weeks from the time you receive them.
    I also ask that if members have additional questions, they 
will submit for the record, and that they please do so to the 
subcommittee by 5:00 p.m. this afternoon. And with these 
opening comments, I would like to yield to our Ranking Member.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Dr. Chu, welcome back to the committee. I have served on 
this committee for most of my time in Congress. And I don't 
think I have ever had less contact with an Energy Secretary or 
with your Department. Even correspondence I have sent you on 
Yucca Mountain and on your proposed reprogramming of funds goes 
unanswered until the day before you are scheduled to appear 
before us. While the timing may be coincidental, it sets a tone 
that you only need to respond to the committee to forestall 
criticism. In the future, I hope we can build a more 
constructive, positive relationship. I know you are busy, but 
that lack of contact makes me wonder if you understand our role 
as appropriators.
    As an example, I note your op-ed penned in yesterday's Wall 
Street Journal where you wrote, and I quote: And with the new 
authority granted by the President's 2011 budget request, the 
Department of Energy will be able to support between 6 and 9 
new reactors, end of quotation marks.
    Mr. Secretary, let me be perfectly clear. There will be no 
authority granted unless Congress grants it. The dollars we 
appropriate are not yours, nor the President's, but belong to 
the people we represent. This committee by law will determine 
how they are spent.
    Moving on to the matter before us, I am generally pleased 
by the priorities in your 2011 request, especially the Defense 
portion, ``Renewables and the Nuclear Energy Portfolio,'' which 
signals support for near-term expansion of this critical clean 
power source.
    Mr. Secretary, I am also gratified to see the request for 
$36 billion in additional loan guarantee authority for nuclear 
power plants. But I ask why the administration has failed to 
include the $360 million that the committee must set aside to 
cover this new authority.
    That omission, plus an ill-considered repetition of a 
proposal which was rejected by Congress last year to reopen 
contributions to the Uranium Enrichment Decommissioning and 
Decontamination Fund leaves this subcommittee with a $560 
million hole. By any gauge, that is a challenge that will be 
difficult to address.
    While I am generally supportive of your priorities, I 
regret that the request is nearly 7 percent more than last 
year. Mr. Secretary, more than 92 percent of the Stimulus Act 
funding you were given last year has yet to be spent. I know 
there is a difference between spending and obligating. Those 
are borrowed dollars that have raised our Federal debt to 
unprecedented levels. Frankly, my constituents want to see some 
restraint in the size of government, not continued growth. They 
want private sector jobs, not public sector ones.
    Mr. Chairman, this may be the only time we have you before 
us. I must request your indulgence to ask once again about 
Yucca Mountain. Mr. Secretary, this subcommittee and the public 
are owed answers on recent developments surrounding that 
license application. Last year's House-Senate conference 
provided clear, unambiguous language to the Department to 
continue the license application through this fiscal year. And 
last year, the full House voted overwhelmingly not to eliminate 
funding for it; yet the Department has filed to withdraw the 
license application ``with prejudice'' in quotation marks.
    If this is approved, no future administration will be able 
to refile the license application, even if it is found by the 
Blue Ribbon Commission or others, that the Yucca Mountain 
repository is truly the best option for long-term waste 
storage. This decision could quite possibly expose U.S. 
taxpayers to billions of dollars in liabilities. And it cedes 
our international leadership role in the scientific and 
technical development of a deep geological waste repository to 
countries like Sweden and Switzerland that are actively working 
for it on a specific site. This administration has unilaterally 
halted the program, I believe; established unsound science, and 
has done so with absolutely zero consultation with Congress.
    And I continue to be disturbed by the Department's, quote 
``game plan,'' as you articulated in a recent conversation with 
the Wall Street Journal's managing editor, Robert Thompson. 
Permit me to read one of your quotations. And I quote, ``While 
it is fair to say that the whole history of Yucca Mountain was 
more political than scientific, but also very truthfully I can 
say that given what we know today, the repository looks less 
and less good. So now we are in a situation where it can't move 
forward. When Yucca Mountain was being established in the early 
1980s, the idea was that the nuclear industry was going to tail 
off. Now because of climate change, we do want to restart the 
nuclear industry. Because of that, the statutory limit of Yucca 
Mountain would have been used up in the next couple of decades. 
So we need to take a fresh look at everything.''
    Perhaps I come from the old school in which $9 billion is 
actually a lot of money. But I understand your rationale. We 
have known for years that a second repository was going to be 
needed, but that shouldn't make us throw away billions of 
taxpayer and ratepayer dollars dedicated to building the first 
one. And we have known for years that other geological 
formations might be even better for a repository. But the 
consensus scientific opinion was that Yucca Mountain was a good 
choice. From where I am sitting, the scientific consensus 
hasn't changed one bit, nor has the expressed will of Congress 
or this subcommittee. It is politics that has changed and that 
is leading the administration to throw away the work of 
decades, adding to the cynicism that comes when politics trumps 
sound science.
    Thank you, Mr. Chairman.
    Mr. Pastor. Mr. Secretary.
    Secretary Chu. Thank you, Mr. Chairman and Ranking Member 
Frelinghuysen. Let me go through my prepared remarks as quickly 
as I can and get to the question-and-answer period. So I want 
to discuss the budget request from the Department of Energy.
    President Obama stated that the Nation that leads the world 
in creating new energy and clean sources will be the Nation 
that leads in the 21st economy. And this is primarily what this 
budget is about. I couldn't agree more with that. It is going 
to create new, clean energy jobs, expand the frontiers of 
science, reduce nuclear dangers, and help curb the carbon 
pollution that threatens our planet.
    The budget request includes an investment of $2.4 billion 
in energy efficiency and renewable energy. And through this 
budget, we are going to increase research, demonstration, 
deployment of wind, solar, geothermal energies, make buildings 
and homes more efficient, develop energy-efficient vehicles, 
and pursue carbon capture and sequestration.
    Our budget request also includes an additional 36 billion 
in loan guarantee authority in the nuclear power sector, as 
well as 495 million for nuclear energy research and 
development.
    The Department of Energy is also focused on the safety and 
security of our people. The Department is requesting a 
significant increase, more than 550 million, in new funding for 
the NNSA Defense Nuclear Nonproliferation program to help meet 
the President's goals of securing all vulnerable nuclear 
materials around the world in 4 years.
    We also ensure the safety, security and effectiveness of 
our nuclear stockpile. With the $7 billion in funds we have 
requested, we can upgrade our infrastructure that has been 
allowed to decay in the past decade, support the work of our 
national labs, and recruit the skilled workforce we will need.
    The budget also protects public health and safety by 
supporting commitments to clean up the environmental legacy of 
the Nation's nuclear weapons program. I have included a 
detailed description of these and other key programs in my 
prepared statement for the record.
    But during this time today, I want to focus on one of my 
key priorities in the Department, the integrated set of 
research and development initiatives that are critical to 
accelerating clean energy breakthroughs, the Energy Innovation 
Hubs, Advanced Research Projects Agency-Energy, and the Energy 
Frontier Research Centers. I believe it will take all three of 
these efforts to discover and commercialize energy 
breakthroughs we all need.
    So let me describe each of them briefly.
    The Energy Frontier Research Centers constitute small 
groups of researchers focused on breakthroughs in science. They 
are mostly university-led teams working to solve specific 
scientific problems that are blocking clean energy development. 
For example, one EFRC is working to improve our scientific 
understanding of the chemical reactions in battery electrodes. 
When you think of the EFRCs, think about a collaborative team 
of scientists such as Watson and Crick who gave us the 
structure of DNA and the protein crystallographers in that same 
research unit that founded molecular biology. As one of my 
colleagues have said, the partnership of Watson and Crick, 
represented marvelous resonance between two minds in a state 
where 1 plus 1 didn't equal 2, it equaled more like 10. So the 
Department proposes expanding the Energy Frontier Research 
Centers to capture emerging opportunities and new materials in 
basic research for energy needs.
    ARPA-E, the Advanced Research Project Agency-Energy, funds 
small groups focused on breakthroughs in technology. This is 
primarily in the private sector. These are using highly 
entrepreneurial funding models to support specific technologies 
where short-term R&D efforts could lead to game-changing 
results.
    For example, the ARPA-E project is developing a technology 
to capture emissions from power plants that were inspired by 
the way the human body captures and disposes of carbon dioxide. 
When you think of ARPA-E, you think of the visionary risk-
takers launching new technologies, startup companies out of 
their garages, of Bill Hewlett and David Packard pioneering a 
new audio oscillator that ended up jump-starting an entire new 
industry in what is now called Silicon Valley. The fiscal year 
2011 budget request includes 300 million for ARPA-E.
    The Energy Innovation Hubs are different than these other 
two. They are large, multidisciplinary, highly collaborative 
teams of scientists and engineers working over a longer period 
of time to achieve specific high-priority goals. For example, 
one of the hubs is focused on cost-effective ways to create 
transportation fuels directly from sunlight. They are led by 
top researchers with the knowledge, resources, and authority to 
nimbly guide the efforts, seizing new opportunities or closing 
off unproductive lines of research. When you think of the hubs, 
think of large mission-oriented research efforts such as the 
Manhattan Project at Los Alamos or the type of projects that 
AT&T Bell Laboratories, which discovered the transistor.
    The Department will continue funding three innovation hubs 
introduced in fiscal year 2010. But in addition, we are 
proposing a new hub to dramatically improve batteries and 
energy storage. We don't know where the big energy 
breakthroughs are going to come from, but we do know what has 
worked before. To reach our energy goals, we must take a 
portfolio approach in R&D, pursuing several research strategies 
that have proven to be successful in the past.
    But I want to be clear: This is not a kitchen-sink 
approach. This is coordinated, prioritized, with a full view of 
where we are going to have to put these pieces together. 
Discovering new energy solutions will take smart collaborators 
pushing the frontiers of science. It will take risk-takers 
working out of their garages. It will take robust research 
teams on a mission. And it will take a Department of Energy 
that brings together the different parts of this research 
strategy to accelerate the innovation process. That is my 
unwavering commitment to you.
    I am looking forward to working with you as we pursue new 
solutions to the energy problem and create a generation of 
clean energy jobs. I will be happy to take questions at this 
time.

[GRAPHIC] [TIFF OMITTED] T1780A.056

[GRAPHIC] [TIFF OMITTED] T1780A.057

[GRAPHIC] [TIFF OMITTED] T1780A.058

[GRAPHIC] [TIFF OMITTED] T1780A.059

[GRAPHIC] [TIFF OMITTED] T1780A.060

[GRAPHIC] [TIFF OMITTED] T1780A.061

[GRAPHIC] [TIFF OMITTED] T1780A.062

[GRAPHIC] [TIFF OMITTED] T1780A.063

[GRAPHIC] [TIFF OMITTED] T1780A.064

[GRAPHIC] [TIFF OMITTED] T1780A.065

[GRAPHIC] [TIFF OMITTED] T1780A.066

[GRAPHIC] [TIFF OMITTED] T1780A.067

[GRAPHIC] [TIFF OMITTED] T1780A.068

[GRAPHIC] [TIFF OMITTED] T1780A.069

[GRAPHIC] [TIFF OMITTED] T1780A.070

[GRAPHIC] [TIFF OMITTED] T1780A.071

[GRAPHIC] [TIFF OMITTED] T1780A.072

[GRAPHIC] [TIFF OMITTED] T1780A.073

[GRAPHIC] [TIFF OMITTED] T1780A.074

[GRAPHIC] [TIFF OMITTED] T1780A.075

[GRAPHIC] [TIFF OMITTED] T1780A.076

    Mr. Pastor. I have been told that there is a possibility 
that in the very near future, within 5 to 15 minutes, there may 
be a call to vote. So we will start with some questions and 
then we will leave to go vote and come back to continue.
    I have a request and, if there is objection obviously I 
won't. But Congressman Wamp is the Ranking Member on a MILCON 
that is going to start a hearing. He would like to ask one 
question before he leaves. Mr. Wamp.
    Mr. Wamp. Thank you for your courtesy. And it is timely 
because Secretary Chu just spent almost 2 full days in Oak 
Ridge and saw several aspects of what is done there. And I am 
grateful for your time and enjoyed being there with you. So did 
our Governor and Congressman Lincoln Davis, and he can follow 
up on this when I go to the other hearing.
    But I wanted to ask you a couple of questions. I know the 
public knew of most of what you did there. But some of what you 
did there, the public doesn't know and shouldn't know. But is 
there anything that you saw or learned in Oak Ridge that in any 
way opened your incredibly educated eyes to anything? Was there 
anything that you were struck by after seeing the really 
excellent multipurpose site? The national security missions are 
certainly grateful for the budget request on nonproliferation 
activities to meet this administration's priorities. Yet, 
clearly, what is done there will assist in a major way the 
world being a safer place. After we provided the build-up for a 
long period of time, we are certainly involved in meeting 
whatever the NPR recommends and we are grateful for that.
    Clearly in the science arena, you all have made a big 
commitment just in the last 15 months in certain areas, that 
the Oak Ridge National Laboratory is working on. I know you 
gave a long talk on climate change. While I don't agree with a 
lot of the objective, it was certainly a talk that the 
scientists at the Oak Ridge National Laboratory really keyed 
into and agree with, obviously, a lot of what you said.
    I was also fascinated at dinner the other night when we 
talked about the research programs at ARPA-E and your 
priorities there. And I want you to go into that today so that 
the subcommittee and the professional staff can fully 
understand what your priorities are and why you need what you 
need from the subcommittee.
    Secretary Chu. Thank you, Congressman. Very quickly. I 
visited two facilities, Y-12, which is part of the NNSA 
laboratory complex. And I visited Oak Ridge National 
Laboratory. And I was struck by the fact that in both sites 
there were an amazing number of Americans working there, a very 
dedicated workforce on two different aspects. In Y-12, I saw a 
new place that was being used to consolidate the nuclear 
materials in a much safer way, so that you can reduce the 
footprint at Oak Ridge, you can actually reduce the 
expenditures, because just the guarding this material was 
becoming exorbitantly expensive.
    It is a place where we also do a lot of the refurbishment 
and dismantlement of our nuclear weapons. This is a very 
important part of our continuing national security. And, again, 
amazing workforce.
    And Oak Ridge National Laboratory is one of the leading 
national laboratories in the Office of Science. As you know, we 
extended that for another 5 years because of its outstanding 
management and operation. It is a center for a wide range of 
activities. It is the leader in the world in advanced computing 
and the use of advanced computing to do all sorts of things 
that will play an integral role in the economic prosperity of 
the United States.
    I did give a long talk. I perhaps spent a fifth of my time 
on climate change, only to say that contrary to some people's 
beliefs, the evidence of human-caused climate change is 
mounting, not decreasing. I hope I spent most of my time 
talking about the economic opportunities the United States has 
in becoming a leader in this evolution towards sustainable 
energy. We have a chance and, again, it is because of the great 
innovation machine in the research universities, in the 
national laboratory, in the private sector especially. When 
guided very gently, that great innovation machine can develop 
leading technologies that can be used at home, but, equally 
important, that can be exported around the world.
    So in my talk there, I was focusing on having the United 
States seize those opportunities for prosperity tomorrow and 
the years and decades ahead.
    Mr. Wamp. ARPA-E?
    Secretary Chu. ARPA-E, is a new way of funding in the very 
short term, 2 years, 3 years maximum. It is a push where the 
program directors in ARPA-E are being proactive, just like in 
DARPA, and they are saying what areas in the technology sector 
are ripe for a little push to really break open development. We 
are funding initiatives that we believe can be home runs. So we 
are not going for signals. If you swing for home runs, you will 
strike out. But if you hit a home run and a grand slam, then it 
really gives us a very different result. It creates new 
industries.
    So a lot of the activities we are funding at ARPA are of 
that ilk. It is very short term, specific. It is sort of 
prefunding that we hope in 2 or 3 years the private sector will 
pick up.
    Mr. Wamp. Is the stimulus money for ARPA-E actually spent, 
obligated under Mr. Frelinghuysen's question? Why don't you 
tell us that?
    Secretary Chu. Yes. So in terms of the stimulus money for 
ARPA-E, the first round of proposals have gone out. The second 
round, in terms of all of the stimulus money and 
appropriations, in answer to that question, we were given 36.7 
billion. Right now we have obligated 26 billion. We will go to 
30 billion by June. By the end of fiscal year 2010 we will have 
obligated all of it. A large fraction of the selection has 
already been done. Under contract, about 12 billion. The 
costing is slower in part because of the costing of any of 
these areas; in particular some of the weatherization grants, 
the State energy programs, the ECBG. And some of these 
programs, you give them to States and we try to help the States 
set up--and many of these things, they too had to go out for 
proposals.
    And so what we are doing is we are helping the States. 
There are some excellent States who are costing these at a very 
good clip. Ohio is a shining example of one such State. And 
there are other States that are less experienced in this, but 
we are trying to help them.
    I think we are partnering with the States. We are trying to 
get that money out. But in general, I think we are on our 
schedule to cost the money as rapidly as we can. We actually 
had an obligation schedule and a costing schedule with some of 
the programs. The ramp-up is now going very quickly. It is 
being well used, and it will be out there and costed in short 
time.
    Mr. Pastor. Thank you, Mr. Wamp.
    Mr. Secretary, as I understand, things have changed again. 
Now, the vote will probably be at 2:30. We have changed again. 
The issue is that sometime this afternoon, the supplemental is 
going to be on the floor, and once that is on the floor, we 
will have to adjourn.
    Secretary Chu. I understand.
    Mr. Pastor. So what I am going to try to do is give the 
members at least 5 minutes to ask a question. So we are going 
to try to accommodate as many members as we can, not knowing 
what time the supplemental comes on and when we have to 
adjourn. The reason I am going to ask these questions is that I 
am kind of learning on the job. But I have seen where assistant 
secretaries and other people from the Department have come 
forth. Usually we lead off when you had a requirement--I will 
give you an example from yesterday.
    We had Assistant Secretary Miller here. In the legislation 
that was passed last year, it said that a report on the hubs 
will be delivered no later than 60 days after enactment. And so 
I mentioned to the Assistant Secretary, that sometime in 
January that was due. And based on his expression, he was a 
little bit surprised to know that that was something that was 
required.
    But he also had another commitment to the committee, the 
strategic report that was due also around January, and he 
apologized profusely. He was hoping to have it here, but no 
plan in hand.
    In 2007, I remember on the subcommittee we asked NNSA for 
the Nuclear Strategy for the 21st Century, and they said it was 
coming. And then they said, ``Well, now, we may have the 
Nuclear Posture Review that was promised last November,'' that 
that is coming. And so it is these series of ``it is coming, 
have faith.''
    Well, as I told you at the very beginning, my intent and I 
think a lot of the members of the subcommittee share this, was 
to look at these reports and see what the future was, where we 
were going, so that we can make decisions as we planned the 
2011 budget. And so it is for us to be able to get the backup, 
the information, so we can make decisions that are rational. 
And now I think we have a bigger mandate since our 
administration has told us to be fiscally responsible, to make 
sure that the moneys are invested in the right way.
    So I would ask you and recommend highly to you that you may 
want to talk to some of your Assistant Secretaries, Under 
Secretaries and the various personnel that you have. It is very 
important that they fulfill their obligation and bring in these 
reports to us, and the quicker the better. So that we can go on 
with our work, looking at your 2011 budget, and making 
decisions that are based on data that they have provided to us.
    Secretary Chu. Well, I don't know if it is any small 
comfort, I will add my apologies. I knew about that obligation 
and we slipped. And I will go back and make sure we redouble 
our efforts and get that back to you. We have slipped on that. 
There has been a lot of effort. These hubs are new. It is 
getting a very clear idea that it is very important to start 
these in the right way. So I've put a lot of direct, personal 
effort because it is something I take very seriously. So in the 
startups of the hubs, it wasn't clear, just as it probably was 
not clear for a little while. I hope to clarify that as best as 
possible to you and the other members of the committee and the 
staff of this committee. It was also not clear in the 
Department of Energy for a little while and we had to go round 
and round and round. And I had to essentially develop with my 
team exactly what we mean.
    But we will take our responsibilities and our duties to you 
and this committee very seriously. And also, just along the 
apology part, certainly I misspoke in the Wall Street Journal 
article about----
    Mr. Frelinghuysen. We do read. They are usually pretty 
accurate.
    Secretary Chu. In the Wall Street Journal article about our 
budget request, it is a request. But I think the Ranking Member 
will hopefully support me on that request. But it is a request 
and we--even I know that. So that I apologize that that 
slipped. I didn't catch it.
    Mr. Pastor. With a misrepresentation, I guess, on the 
reporter.
    Secretary Chu. No, no. Whatever I wrote.
    Mr. Pastor. I am trying to get you a way out of this one. 
Rodney, as I understand now, the supplemental will be brought 
up after this series of votes. So we are going to clarify it, 
so as we leave we will know where we are at. Rodney.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. I don't need to 
reiterate my unhappiness. I am just wondering, I have a few 
questions and you may want to bring a few reenforcements up to 
join you. I would like to clear up some matters relative to the 
legal authority for some of your actions relative to Yucca.
    Mr. Secretary, Section 304 of the Nuclear Waste Policy Act 
establishes the Office of Civilian Radioactive Waste Management 
which will be headed by a director. Your budget request 
materials very clearly state that you are terminating the 
office. Are you requesting an amendment to the Nuclear Waste 
Policy Act?
    Secretary Chu. No. I felt that this was something I 
discussed with general counsel in my office as to how to 
interpret that. And we respectfully believe that it is an 
authority in the Department of Energy that we can reallocate--
--
    Mr. Frelinghuysen. The office, as you are aware, was 
established by statute. I don't think you can do it 
unilaterally.
    Secretary Chu. Well, all I can say is I am not a legal 
expert in this matter. But I did talk with our general counsel 
on it at some length.
    Mr. Frelinghuysen. I raise the issue. This is why some 
basic communication would help, despite the political dynamic 
and the determination that the White House is ironclad. You do 
have to have some statutory authority to do it.
    On March 10th, the Department sent a Notice of Expected 
Separation to more than 150 DOE employees who may lose their 
jobs as a result of the administration's Yucca Mountain policy. 
This puts them on notice that workforce restructuring 
opportunities may be available to them. It is a kind way to put 
it, including jobs in another part of the DOE. You are aware of 
this notice?
    Secretary Chu. Yes.
    Mr. Frelinghuysen. Yes, of course. And are you aware of 
section 302 of our fiscal year 2010 act? Or maybe somebody 
behind you is.
    Secretary Chu. Yes. Yes. We are seeking to reprogram the 
funds so that given the present administration's intent to 
close down Yucca Mountain, that given the expense of it, we 
thought it would be prudent to begin and to reprogram those 
funds.
    Mr. Frelinghuysen. Let me just read from that section. And 
I quote, ``None of the funds appropriated by this act may be 
used to develop or implement a workforce restructuring plan 
that covers employees of the Department of Energy.'' All within 
quotation marks.
    Now, I have asked the lawyers at the GAO to give me their 
preliminary opinion on this provision. But I am sort of looking 
for yours. And you are using fiscal year 2010 funds to 
restructure the Office of Civilian Radioactive Waste 
Management. And what is your authority for doing it?
    Secretary Chu. Again, this is----
    Mr. Frelinghuysen. I don't want to get into moral 
authority. I am wondering what your legal authority is.
    Secretary Chu. Absolutely. So on matters of legal 
authority, again, I look to the general counsel on this. And so 
we would be happy to discuss it, but again this is something 
where I was under the impression and advised that we, of 
course, needed to inform this committee and Congress of our 
intent to do this. But, I was told it was within our 
capability.
    Mr. Frelinghuysen. Some think that this provision only 
applies to the Defense nuclear facilities because of its 
original links to section 3161 of the fiscal year 1993 Defense 
authorization bill.
    But a defense nuclear facility is defined in the act and I 
quote, ``includes,'' in quotation mark, ``a nuclear waste 
storage or disposal facility that is under the control or 
jurisdiction of the Secretary,'' end of quotation. That sounds 
pretty much like Yucca Mountain. I assume you would agree.
    I think we need some clarity here. I know that 
determination has been made but quite honestly, I don't think 
you have the statutory authority to do it.
    Secretary Chu. Well, I think this would require a longer 
discussion, you and I and our staffs on that.
    Mr. Frelinghuysen. We will have that. I welcome that.
    Secretary Chu. Okay.
    Mr. Frelinghuysen. And I think, quite honestly, public 
opinion is behind having it, certainly in relation to the Blue 
Ribbon Commission that the Chairman and I have talked about. 
That always ought to be on the table. I know the word is out it 
has been eliminated. But in reality that is not our read there, 
nor is it in the statute which I cited there.
    Secretary Chu. Okay. I am misunderstanding what you were 
saying because I was on an earlier comment. If the discussion 
is what the Blue Ribbon Commission----
    Mr. Frelinghuysen. That is one discussion. But I think to 
some extent if you move unilaterally, you are actually 
violating section 3161 of that 1993 Defense Authorization Act. 
Obviously we are going to see what we can do to get a little 
more clarity. And I welcome the discussion with you.
    Thank you, Mr. Chairman.
    Mr. Israel. Thank you, Mr. Chairman. Mr. Secretary, I want 
to thank you for the work you are doing. Your Department has 
had a legacy of several decades I believe of unfilled 
potential, and I believe you are changing that. You are 
changing it in your management style, you are changing it your 
expertise, and you are changing it with new investments. So 
thank you for that.
    I know we are going to go to votes fairly soon, so I will 
ask a very quick question. I am going to dispense with the 
wind-up and get right to the pitch. You and I have had 
conversations in the past about PACE bonds, Property Assessed 
Clean Energy bonds. You recognize that energy efficiency is 
low-hanging fruit to displace oil almost immediately. You also 
recognize that the best way of achieving that energy efficiency 
is to allow people to get a faster return on investment. And 
one good way of doing that is to incentivize local governments 
to help people finance those energy-efficiency retrofits in 
deployment of renewable energy, whether it is an individual 
homeowner or a major commercial property developer.
    My question is--I have asked this to Secretary Johnson and 
Secretary Souza as well. I am going to pose it to you and then 
ask if you and I could follow up. I believe that the big game-
changer in this would simply be for the Department of Energy to 
apply its existing loan guarantee authorities to guarantee 
local financing, to guarantee that when a municipality goes 
into the bond market to finance those retrofits, that the full 
faith and credit of the United States Government is behind 
those financings.
    We passed that language in the climate change bill in the 
House. I am not sure you need an act of Congress to do that. 
You have the authority to simply say that some of your loan 
guarantee authority will apply to PACE bonds and other local 
financing.
    So I am asking you today to give that deeper consideration. 
I know that there are some theories in the Department, but when 
can we have a conversation so that we can get to a decision by 
you on applying some of that loan guarantee authority to PACE 
bonds and other local financing mechanisms?
    Secretary Chu. Congressman, first, yes, I am a big fan of 
the PACE mechanism of funding, upfront cash so homeowners and 
even businesses can do retrofits that will prevent out-of-
pocket expenses and actually save them money on a month-to-
month basis. We are looking at this--I am being assaulted now 
with a lot of legal questions.
    In some sense I should have my younger brother, the lawyer, 
here. In any case, I have asked whether we, within our 
authority, can do this or not. But I do agree that it is 
something that we are very enthusiastic about and we would 
invite you over to the Department of Energy, so we can talk 
about that.
    Mr. Israel. I would like to have that conversation and also 
some certainty as to when the lawyers are going to give you an 
answer. I know it has been churning, but if we can do a little 
less churning and a little more producing it would be good. If 
you can prioritize that, I would appreciate it and look forward 
to following up with you personally.
    Thank you, Mr. Chairman.
    Mr. Pastor. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman. Thank you for being 
here, Secretary. I appreciate it very much.
    Let me say first of all, I appreciate the administration's 
response to the nuclear energy budget in this budget that you 
proposed. I see many administrations come through that say they 
support nuclear energy. Then when the budget comes in, it 
doesn't seem to do that. This is the first one that I have seen 
that actually looks like they are serious about nuclear energy. 
So I thank you for that. It is very important.
    I told you I wasn't going to ask you anything about Yucca 
Mountain, and I am not; but I will make a statement and you can 
respond if you want to. You don't have to. The white elephant 
sitting in the room back there is--we all know why it is 
closing. Nobody wants to say it, but we all know why it is 
closing. It has nothing to do with science or anything else. It 
is just the reality. And I get it. It is going to close. But I 
do have one complaint. You are seeking to withdraw the license 
application. I understand why you are doing that. What I don't 
understand is why you are seeking to withdraw it with 
prejudice. Which means that some future administration, some 
future Congress, when we are all gone, can't decide those guys 
back in 2000 knew what they were doing and this maybe is a good 
place to put it.
    Now, the Blue Ribbon Commission is not a siting commission. 
It is a process commission to look at how we are going to deal 
with this stuff. But we all agree that at some point in time we 
are going to need a geological repository. You said that last 
year. At some point in time, we are going to have to have some 
siting commission, some future administration, some future 
Congress, whoever, is going to have to have a siting 
commission.
    Why not leave everything on the table instead of trying to 
tie the hands--and, in fact, this doesn't really tie the hands. 
What it does is just make it more expensive, because it just 
means you cannot reapply for the same license application. They 
could say we are going to expand Yucca Mountain. It is a 
different license application, and we can apply for it. All 
that withdrawing with prejudice says is you are going to have 
to go through some additional steps, maybe reducing the size of 
it, maybe expanding the size of it, change it somehow so it is 
a different license. That just means it adds cost to it. So I 
just don't understand why you would withdraw it with prejudice.
    Having said that, I think what Ranking Member Frelinghuysen 
was saying was the ability of the Department of Energy to 
discontinue the OCRWM division, a division that was created by 
Congress, by statute, is questionable. And so we probably need 
some legal clarification or at least some discussions with you 
on that.
    Having said all that, will you guarantee me that it is the 
intent of the Department of Energy to meet the milestones in 
the Governor's agreement to the State of Idaho, and does that 
include having all the SNF removed from the State of Idaho by 
the year 2035?
    Secretary Chu. So in answer to your last question, the 
answer is a very simple ``yes.'' We intend to fulfill our 
obligation. The reason we are withdrawing with prejudice is so 
that we give a very clear signal this administration does not 
intend to proceed, so we move on with it.
    Mr. Simpson. Are you going to blow it up? It is a big hole 
in the ground. We have abandoned mines that we try to take care 
of. Are they going to put cement over it?
    Secretary Chu. None of the above.
    Mr. Simpson. I think it is a pretty clear indication that 
you have made. I don't think you have to withdraw with 
prejudice. I mean, you said we ain't going to pursue it.
    Anyway, one other question. Loan guarantees. I appreciate 
the fact that you put out the $8 billion in the conditional 
loan guarantees for the new reactors. It is a huge step 
forward. As you know, for front-end enrichment facilities, 
there are proposed loan guarantees that are currently before 
the Department of Energy. I talked with the Under Secretary of 
the loan guarantee program, the director of the loan guarantee 
program. There have been applications that have been going on 
for about 18 months. His goal is to try to reduce that to 4 to 
6 months.
    Any idea when we are going to see any type of results from 
the loan guarantee on the front-end enrichment? And I also 
applauded your decision yesterday with the 45 million that you 
have committed to USEC, at Oak Ridge and so on. I think that is 
the right step. I don't think these companies have to be in 
competition with one another. The fact is we need all 
technologies.
    Secretary Chu. Yes, I agree with that. And what we are 
doing is we are proceeding on the two front-end loan guarantee 
applications. They are on different timetables. One is not 
holding up the other. We are trying to work and finalize 
arrangements so that we can finance both of them. I think that 
is proceeding forward. So, in fact, if what we hope is to 
restart the nuclear industry, we will need both.
    Mr. Simpson. Could you tell me how the credit subsidies are 
determined in the loan guarantee program?
    Secretary Chu. Very, very complicated issue. It depends on 
the financial stability of the assets of the company; in case 
of default, what the Federal Government could put liens on. 
These are complex determinations on the bond rating, if you 
will, that accompany many other things, the assets. And then we 
determine a range. And then through discussions with OMB, a 
credit subsidy is finally determined.
    Mr. Pastor. Thank you. Mr. Davis.
    Mr. Davis. Mr. Chairman, thank you very much. And, Mr. 
Secretary, thank you for being here today. My father always 
told me if you want to hear a sermon, be sure you have a 
preacher that is preaching it. And if you want someone to 
operate your farm, be sure you get a farmer. Now, I use those 
two analogies for a reason. If you want someone to be the head 
of the Agency for Energy Research and Development, get a 
scientist and someone who has been there and done that and 
knows what they are doing.
    I am pleased for one of the few very first times, we have a 
Noble Laureate and someone who gets it. Someone who is willing 
to question even what may be going on in the laboratories, if 
necessary, and to be sure that those individuals we have tasked 
with certain responsibilities are fulfilling those 
responsibilities.
    I have been impressed with your leadership of this 
Department and I am sure that in the future we will even be 
more impressed as you continue to work to be sure that 
America's energy needs and our national security needs will be 
met.
    I hear a lot about climate change being discussed. In my 
district, it is a very rural district, and there will be folks 
who challenge me on all cases, generally: Climate change is not 
occurring; there are just changes in certain cycles. And I say, 
``So you believe that it is a cyclical process?'' ``Yep.'' ``So 
you think we go through cycles on the Earth and therefore the 
temperatures change.'' They say, ``yeah.'' And I say, ``So you 
believe in climate change.'' ``Oh, yeah, but I don't believe 
man has anything to do with it.'' And then you say, ``Well, if 
we are talking about an energy policy, climate change, you are 
pretty happy that we are talking about removing the hold from 
our throat that foreign countries have on us that are supplying 
us with energy.''
    So, should we call this an energy policy? Should we shift 
the title of what we are doing? Because everyone wants cheaper 
energy.
    My wife and I built a house many years ago when we put a 
split-unit electric system in it. The air handler was in the 
basement and the outside condenser was outside. And then 
natural gas came, and we put a natural gas system in. And then 
that ran out because they were using the wells in the area--I 
am getting to energy efficiency. And then when the natural gas 
ran out, we put in another propane. And eventually, about 2 
years ago, we put in a high-efficiency electric unit that has 
saved us 65 percent or better of the energy we consumed the 
last 30 years in that house, on an average annual basis, if you 
look at the kilowatts that we use per month by using the highly 
efficient unit.
    So for me, I think there are many, many parts of the puzzle 
when we talk about becoming closer to energy independent, and 
becoming more and more economically secure, and having more 
national security as we look in the energy policy that brings 
us there.
    So from where I am sitting, I am looking at someone like 
you that has the experience, has the knowledge. Where do you 
see our country being a decade from today as it relates to all 
of the proposals we are seeing in the area of energy? And what 
do you expect our labs to be able to do to make us more energy 
independent and less dependent on nations who may not be our 
friend?
    Secretary Chu. Well, I agree with you. I think the lowest-
hanging fruit is to promote energy efficiencies. Show 
homeowners, show individuals, show companies, how to decrease 
their energy usage so they save money and create incentives and 
really show this can be done.
    I do this personally in every home I've lived in. Well, 
there is one that was built very recently that I didn't have to 
do much. In every other home that was older I personally, with 
my own hands, weatherized these homes, putting insulation in, 
and I got huge energy savings immediately--and a more 
comfortable home.
    And so I think that is one of the things. In 10 years' time 
we hope we will have then piloted successfully and deployed at 
scale energy-efficiency programs that homeowners can 
immediately start saving money using finance mechanisms so 
there is no out-of-pocket cost, but on a monthly basis they are 
saving money. I think we want to do the same in industries, 
factories, and commercial buildings.
    So these are some of the things that we want to push as 
hard as possible. We also want to develop and push the 
continuation of cleaner forms of energy, to develop cleaner 
ways of using fossil fuel as we develop renewable energy.
    So I see within 10 years a growth of wind, I see solar 
photovoltaics dropping at least by a factor of 2, hopefully a 
factor of 3 in price. Factor 4, magic will occur. But then, 
without subsidy, everyone will put it on their roof. I see 
batteries that will have twice the energy density of today's 
batteries, so we can have plug-in hybrids at a massive scale. 
In 10 years, we begin to massively deploy--it is simply, again, 
saving more money because you can plug your car in, and if we 
have batteries that are compact and could last 15 years, that 
were at the target price we want, you are driving your car in 
the first 40-50 miles with maybe three times less cost and 
decreasing our oil dependency. In 10 years' time, what I see in 
the battery technology, I think this will happen.
    Mr. Davis. I think also, as I see the increasing of 
potential loan guarantees for those reactors in nuclear energy, 
is that also an area where you see expansion?
    Secretary Chu. Yes, very much so. I think it is the intent 
of the administration to--and this is why we are requesting 36 
billion in additional loan guarantee authority. So that we can 
show that the new generation 3-plus reactors can be built on 
time, on budget, that it makes good economic sense. And then 
the private sector, the financial companies will say, this 
makes good economic sense, it is a good way to baseload clean 
energy, and they will take over. That is the strategy.
    Mr. Pastor. Mr. Rehberg. Calvert.
    Mr. Calvert. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary. It is always great to see a fellow Californian out 
here today.
    As you know, not all solutions for energy are high-tech. 
Some solutions are relatively low-tech, and one of those was a 
number of companies that are coming out with new roofing 
granules, so-called cool roofs. You talked about them. 
President Obama has talked about them. And as a matter of fact, 
3M Corporation that make these roofing granules just happens to 
be in my congressional district. It's a low-tech solution that 
works, brings down your energy costs substantially.
    And since you both have talked about it, you continue to be 
a strong proponent of those technologies, could you encourage 
homeowners to install cool roofs when possible?
    Secretary Chu. Yes. The answer is yes.
    Mr. Calvert. Okay. Then you know in this Home Star 
legislation that is now being considered here in Congress, the 
so-called Silver Star rebate to consumers who make energy-
efficient upgrades such as insulation and other things that you 
have talked about. Which I think is great. But I think other 
products also need to be considered. I know you cannot have an 
open-ended process on this, but certainly these ideas that have 
substantial energy savings I think you should look at. Would 
you agree that it makes sense to add cool roofing to the list 
of products eligible for Silver Star rebates?
    Secretary Chu. Yes.
    Mr. Calvert. Well, good. That is good to have that on the 
record. That was easy.
    I understand that you sent notification on February 17th 
that the Department intends to reprogram $115 million of the 
remaining fiscal year 2010 funds to close Yucca Mountain, which 
was not at all what those funds, as you know, were intended 
for. And I should note at this point the committee has not 
approved or denied that reprogramming. So I would expect that 
no action has yet been taken; is that correct?
    Secretary Chu. That is correct. We are waiting on the 
ruling from the NRC.
    Mr. Calvert. Well, do you intend to reprogram those funds 
without congressional approval?
    Secretary Chu. Well, that again goes back to this legal 
question that we need to----
    Mr. Frelinghuysen. We would like the answer ``no.''
    Secretary Chu. We will work on clarifying the legal 
question.
    Mr. Calvert. You do not know. You may?
    Secretary Chu. I hear a difference of opinion between 
Ranking Member Frelinghuysen and our lawyers. So we need to 
work that out.
    Mr. Calvert. So the answer is you may make a determination 
to reprogram those funds without congressional approval?
    Secretary Chu. Let's say before we do anything, we are 
going to have a discussion with this committee.
    Mr. Calvert. Okay, that is fair enough. I will just leave 
it at that. Thank you, Mr. Chairman.
    Mr. Pastor. Mr. Berry.
    Mr. Berry. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here.
    My question relates to Yucca Mountain also. It is my 
understanding that you intend to continue to collect the 
nuclear waste fees, but there is no Yucca Mountain anymore and 
we do not know what we are going to do. And we still have to 
spend the money to take care of this stuff while it is on site.
    What are we going to do? Why are we even collecting those 
fees? Why don't we think about returning them, if we do not 
know what we are going to do with them?
    Secretary Chu. Well, this is one of the charges of the Blue 
Ribbon Commission, to first determine the appropriate fee 
collection as they make recommendations to me, the President, 
and Congress on how to move forward with better solutions. So 
one of the charges of that committee is to look at the fees.
    But I would have to say that we need that money for the the 
long-term disposal of the permanent waste. We will need that 
money for the current storage. But the rate, the fee, all those 
things, that is part of the charge of the Blue Ribbon 
Commission.
    Mr. Berry. I guess my first reaction to that was that if we 
collected fees or taxes for everybody that needs it, there 
would not be anything left. It would take all the resources of 
the entire world. I do not consider that to be an acceptable 
situation.
    How long is it going to take this Blue Ribbon Commission to 
do their work? Are we going to be bound by that, or are we 
still going to have to pass legislation? Or is the Department 
of Energy going to be able to decide after they receive that 
information from the commission?
    Secretary Chu. Well, the Blue Ribbon Commission is actually 
beginning to meet tonight and tomorrow on this. The chairs, 
General Scowcroft and Congressman Hamilton, are very eager to 
get on with this and to deliver a report before the announced 
deadline. They want to do this as soon as possible. So we do 
not want to delay.
    But again, we also want it to be a thoughtful process, 
where this very distinguished committee and any subcommittees 
they choose to form can really look at this and give us advice. 
And what we know today is really different than where we were 
in 1982 and the mid-1980s.
    The quote in the Wall Street Journal interview is correct. 
We are in a different place. We know more. I think we would 
like the Blue Ribbon Commission to take that new knowledge--
and, quite frankly, we do want to restart the nuclear industry 
in the United States. That is part and parcel of a lot of 
things.
    Let me also say with regard to everybody's favorite topic, 
Yucca Mountain, that things evolved from the first time a 
decision was made. The Supreme Court ruling changed things. As 
we went more into it, things changed. Over a period of years, 
the determination was made that in order to make this 
repository work and the requirements that were not anticipated 
at the beginning of this, a titanium shield had to be 
constructed which was not budgeted, which, you know, rough 
estimate, this is an additional $5-plus billion.
    And so as things progressed along it looked like, you know, 
what was happening? Now we want to take stock and get this very 
distinguished committee to say, give us advice, nonpartisan 
advice.
    Mr. Berry. The people that made the original decision, were 
they not distinguished? Or very distinguished?
    Secretary Chu. Everybody was very distinguished. No, 
seriously, what has happened is that the requirements changed. 
There were a few things. The most notable requirement was 
10,000 years to a million years, a very different requirement. 
And so there were all sorts of things that were changing from 
the mid-1980s to today.
    Mr. Berry. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    Mr. Pastor. Quick question. You know the language for the 
charter. And as written it says, we think including a deep 
geologic disposal--that Yucca Mountain should be considered.
    And the charter also says that--it references that the 
Secretary--such other matters the Secretary deems appropriate.
    And I guess the question is, as directly as I can put it: 
Have you told the Blue Ribbon Commission that Yucca Mountain is 
not an alternative to be considered?
    Secretary Chu. Yes.
    Mr. Pastor. So therefore it is not.
    Secretary Chu. Correct.
    Mr. Pastor. Well, I have to tell you that it was our 
intent--and the legislative history was that Yucca Mountain, 
should also be considered. But that is, a political battle we 
will have to fight somewhere else. So thank you.
    Mr. Frelinghuysen.
    Mr. Frelinghuysen. Just following up on Congressman 
Calvert's question on the notification to the committee on the 
intent to reprogram. If you have not made a decision--that 
means you are responsible for executing the plan as Congress 
directed.
    Secretary Chu. No.
    Mr. Frelinghuysen. Tell me why that is wrong.
    Secretary Chu. Let me clarify.
    Mr. Frelinghuysen. We understand that if you do not do 
anything, that you ought to proceed with continuing on the 
license application.
    Secretary Chu. Let me try and state it a little clearer. A 
decision was made in the administration to discontinue 
advancing Yucca Mountain. But I thought the question was: Are 
we going forward with this? We cannot go forward with it until 
the NRC rules on it. Okay. So given that, we are waiting for an 
NRC ruling, so we have applied to the NRC to say we want to 
discontinue. They make a ruling. So we would like to 
discontinue it, but you have to go through these procedures.
    Mr. Frelinghuysen. So until we go through those 
procedures----
    Secretary Chu. Right. Until the NRC says we accept your 
application to withdraw, we cannot do that.
    Mr. Frelinghuysen. In the time remaining, can you put a 
little meat on the bones relative to what you have done to 
create jobs under the stimulus bill? I know you have talked 
about numbers.
    We see from time to time, and I will not pull them out of a 
hat here, we do some good things--invest in smart grids--and 
then some suggest we lose 36,000 meter reader jobs.
    I wonder, can you paint a picture for us of the money that 
has been spent--so we understand the difference. You say you 
have obligated $26 billion? Tie some job numbers to that. And 
if you can, distinguish between private sector jobs and adding 
on people to State payrolls and stuff like that.
    Secretary Chu. Sure. We believe that most of the Recovery 
Act money is stimulating private sector jobs. Our experience 
is, once we obligate money, that all of a sudden starts a 
stream of activity. People go out and hire. The so-called costs 
that are spent is a bill. After you have done the work, then 
you apply for the bill. So that is followed by a month, maybe 
later.
    So once you have said, okay, we have selected an 
organization, a company, whatever, and then you finally 
obligate the money, they go out and they start hiring. So we 
have many, many examples of that----
    Mr. Frelinghuysen. I do not mean to be crass, but I did 
visit your Web site. And I assumed, under your tutelage, that 
Web site would be of the highest quality. I saw nothing on the 
DOE's Web site where we have these types of figures. And I 
cannot see anything on there as to how jobs are being created 
by program. Have you taken a look at your Web site?
    Secretary Chu. Yes, I have. But let me just----
    Mr. Frelinghuysen. You are telling me it is all there?
    Secretary Chu. Did you look at the DOE Web site or 
recovery.gov Web site?
    Mr. Frelinghuysen. I assume you have command over the DOE 
Web site. You have got more money, obviously, close to $40 
billion, that you might as well take some credit for creating 
jobs on your own Web site. So you are telling me that the 
Recovery Act has its own Web site?
    Secretary Chu. That is correct.
    Mr. Frelinghuysen. And has sucked away--has the totals, but 
you do not have them on your Web site?
    Secretary Chu. Well, we have the totals. And so what you 
are asking--I do not know. I have to ask my people, whether 
when you click on the DOE Web site, whether there are links 
that guide people. But there was, a very good reason for trying 
to consolidate all the Recovery Act money on a single Web site 
so you can click around, independent of the Agency.
    Mr. Frelinghuysen. Yeah, but nobody proportionately got, 
quite honestly, as much money as you did. And I am sure you are 
putting it to good use. If we need any more clarity, we will 
look at the other Web site.
    Secretary Chu. And I will make sure that on the home page 
of the DOE Web site, there is an easy click to the recovery Web 
site if you want to do that, if it is not there already. But I 
will certainly do that.
    Mr. Frelinghuysen. Thank you, Mr. Secretary. Mr. Chairman, 
thank you.
    Mr. Simpson. Mr. Secretary, as I understand it, the NRC can 
let you withdraw it with prejudice, they could let you withdraw 
it without prejudice, or they could deny you from withdrawing 
the license application. In any case, if they let you withdraw 
it, waste confidence is an issue as we move forward.
    Are you going to propose legislation to effectively 
legislate waste confidence?
    Secretary Chu. Well, again, we are going to take it one 
step at a time. The Blue Ribbon Commission is there to look at 
what we know now; also they will anticipate things being 
developed for the coming decades. The NRC believes that the 
current dry-cask storage of waste, does not impose an immediate 
environmental threat. We can do this. Also we can store it 
safely, securely for many decades. And so we have time to 
develop a strategy.
    So the Blue Ribbon Commission is being asked to make 
recommendations, including legislative recommendations that 
would then go to Congress. Rather than jumping at this, given 
that the NRC has said that it could be a half-century or 
century before it becomes an environmental challenge----
    Mr. Simpson. Let me just make one other comment that you 
can comment on. One of the things that has concerned me is we 
talked a lot about the science and technology, all important 
work. But at some point in time, this stuff has got to get out 
in the real world.
    I think ARPA-E is a great start for particularly small new 
technologies. Those things that might not be able to compete in 
the real world until they have a chance at this kind of thing.
    What about NGNP? You know, I understand you awarded $40 
million for the design work to two companies for two different 
designs on, what, the Prismatic reactor and the Pebble bed 
reactor? You are now negotiating final cost-share.
    When are we going to start working with industry so that I, 
as an appropriator, and we, as an Appropriations Committee, 
know what is going to be expected of us? What is going to be 
the government's responsibility and share? And when does 
industry step in and when are they going to take over?
    We need some, formal type organization, that works this out 
ahead of time. I am surprised that after awarding these two 
things that we are now discussing with them cost-share. You 
would think that would almost have been a done deal before the 
bids were awarded.
    I am just saying, are we doing it right? Do we need a 
better organizational structure to work with industry? Because 
ultimately we can do all the science in the world; if industry 
doesn't want it, it doesn't mean anything. It has got to be 
deployable.
    Secretary Chu. I agree. But you know, I think the 
Department of Energy has been a good partner with industry and 
with Congress. Legislation had a program to help companies go 
through the licensing, for example, for the new AP-1000 nuclear 
reactor that is still in this process. But that program after 
2010 is ending, and it is well on its way.
    So in these issues, any new design reactor, if industry is 
not going to pick it up, we don't really want to see it. These 
are big, expensive things.
    And so we will continue doing this in the small modular 
reactors. There has been a lot of new industry interest in 
this. So we are facilitating that; facilitating the licensing, 
so we can actually help initiate getting it going. But 
eventually you want to step back and say, look, is this going 
to stand on its own?
    For example, this generation of nuclear reactors like the 
AP-1000. You know, after you have built a couple of them, two 
or three. That should be enough proof that you can build these 
things on time, on budget. Then let industry decide.
    Mr. Simpson. Okay. Let me ask just one follow-up, and then 
I can be done, Mr. Chairman, and I don't have to come back.
    Mr. Pastor. We are not coming back.
    Mr. Simpson. So I will be done. If the NRC denied your 
withdrawal of the application, what would that do to your 
fiscal year 2011 budget?
    Secretary Chu. Good question. I think we are going to have 
to regroup there, wouldn't we?
    Mr. Pastor. Be another reprogramming.
    Secretary Chu. I don't know. We will see.
    Mr. Simpson. So there is no ancillary plan?
    Secretary Chu. I think if they deny our request, then we 
will have to----
    Mr. Simpson. Reassess.
    Secretary Chu. We will have to reassess where we are.
    Mr. Frelinghuysen. Let me just push for better 
communications between all of us. So if there are some issues 
you are moving on, I think it is important to let the committee 
leadership, the committee members, know.
    Secretary Chu. Okay.
    Mr. Frelinghuysen. If you can give us that assurance.
    Secretary Chu. Yes, I will.
    Mr. Frelinghuysen. We are educable.
    Mr. Simpson. Some of us.
    Mr. Frelinghuysen. Some of us more educable than Mr. 
Simpson. But he is very knowledgeable, as you know, certainly 
when it comes to Idaho and nuclear issues. But I am headed out 
to Berkeley and to Livermore to see what is going on out there.
    We would like better communication, generally speaking, 
between you and our membership.
    Secretary Chu. You have my pledge. With regard to, for 
example, that letter. I have been frustrated with the time 
delay of some of the letters, not only from Congress but in 
general. And as I sign some of these things, I am actually 
looking back at the tortuous route and why did it take 4 
months. So we have a new person in the Department, executive 
secretary, that will hopefully accelerate this. There is no 
reason in the world it should be taking 4 months to answer 
letters.
    Mr. Frelinghuysen. Thank you. Thank you, Mr. Chairman.
    Mr. Pastor. Mr. Secretary, thank you very much for being 
with us.
    This will conclude the hearing, because after this series 
of votes we will get on with the supplemental on the floor. And 
the committee rule is that if there is appropriations business 
on the floor that the subcommittee cannot have hearings.
    So we thank you for being here with us this afternoon. You 
have heard some of the comments from some of the members and 
some of their concerns. Just to remind you from the beginning 
of my statement, there will be questions for the record.
    Secretary Chu. Right.
    Mr. Pastor. And if you could answer them within the time 
period requested, we would greatly appreciate it. And as 
Assistant Secretary Miller said yesterday, next time we see 
each other the plan will be in hand. So I hope that all the 
other plans that are due through the hubs and the other ones, 
we will have soon.
    So I need to look at some of these plans to dictate what 
happens in the future. So I would appreciate it very much. And 
I wish you a great day, and congratulations on your tenure at 
the Department of Energy.
    Secretary Chu. All right. Thank you.
    Mr. Pastor. That concludes the hearing.

    [GRAPHIC] [TIFF OMITTED] T1780A.077
    
    [GRAPHIC] [TIFF OMITTED] T1780A.078
    
    [GRAPHIC] [TIFF OMITTED] T1780A.079
    
    [GRAPHIC] [TIFF OMITTED] T1780A.080
    
    [GRAPHIC] [TIFF OMITTED] T1780A.081
    
    [GRAPHIC] [TIFF OMITTED] T1780A.082
    
    [GRAPHIC] [TIFF OMITTED] T1780A.083
    
    [GRAPHIC] [TIFF OMITTED] T1780A.084
    
    [GRAPHIC] [TIFF OMITTED] T1780A.085
    
    [GRAPHIC] [TIFF OMITTED] T1780A.086
    
    [GRAPHIC] [TIFF OMITTED] T1780A.087
    
    [GRAPHIC] [TIFF OMITTED] T1780A.088
    
    [GRAPHIC] [TIFF OMITTED] T1780A.089
    
    [GRAPHIC] [TIFF OMITTED] T1780A.090
    
    [GRAPHIC] [TIFF OMITTED] T1780A.091
    
    [GRAPHIC] [TIFF OMITTED] T1780A.092
    
    [GRAPHIC] [TIFF OMITTED] T1780A.093
    
    [GRAPHIC] [TIFF OMITTED] T1780A.094
    
    [GRAPHIC] [TIFF OMITTED] T1780A.095
    
    [GRAPHIC] [TIFF OMITTED] T1780A.096
    
    [GRAPHIC] [TIFF OMITTED] T1780A.097
    
    [GRAPHIC] [TIFF OMITTED] T1780A.098
    
    [GRAPHIC] [TIFF OMITTED] T1780A.099
    
    [GRAPHIC] [TIFF OMITTED] T1780A.100
    
    [GRAPHIC] [TIFF OMITTED] T1780A.101
    
    [GRAPHIC] [TIFF OMITTED] T1780A.102
    
    [GRAPHIC] [TIFF OMITTED] T1780A.103
    
    [GRAPHIC] [TIFF OMITTED] T1780A.104
    
    [GRAPHIC] [TIFF OMITTED] T1780A.105
    
    [GRAPHIC] [TIFF OMITTED] T1780A.106
    
    [GRAPHIC] [TIFF OMITTED] T1780A.107
    
    [GRAPHIC] [TIFF OMITTED] T1780A.108
    
    [GRAPHIC] [TIFF OMITTED] T1780A.109
    
    [GRAPHIC] [TIFF OMITTED] T1780A.110
    
    [GRAPHIC] [TIFF OMITTED] T1780A.111
    
    [GRAPHIC] [TIFF OMITTED] T1780A.112
    
    [GRAPHIC] [TIFF OMITTED] T1780A.113
    
    [GRAPHIC] [TIFF OMITTED] T1780A.114
    
    [GRAPHIC] [TIFF OMITTED] T1780A.115
    
    [GRAPHIC] [TIFF OMITTED] T1780A.116
    
    [GRAPHIC] [TIFF OMITTED] T1780A.117
    
    [GRAPHIC] [TIFF OMITTED] T1780A.118
    
    [GRAPHIC] [TIFF OMITTED] T1780A.119
    
    [GRAPHIC] [TIFF OMITTED] T1780A.120
    
    [GRAPHIC] [TIFF OMITTED] T1780A.121
    
    [GRAPHIC] [TIFF OMITTED] T1780A.122
    
    [GRAPHIC] [TIFF OMITTED] T1780A.123
    
    [GRAPHIC] [TIFF OMITTED] T1780A.124
    
    [GRAPHIC] [TIFF OMITTED] T1780A.125
    
    [GRAPHIC] [TIFF OMITTED] T1780A.126
    
    [GRAPHIC] [TIFF OMITTED] T1780A.127
    
    [GRAPHIC] [TIFF OMITTED] T1780A.128
    
    [GRAPHIC] [TIFF OMITTED] T1780A.129
    
    [GRAPHIC] [TIFF OMITTED] T1780A.130
    
    [GRAPHIC] [TIFF OMITTED] T1780A.131
    
    [GRAPHIC] [TIFF OMITTED] T1780A.132
    
    [GRAPHIC] [TIFF OMITTED] T1780A.133
    
    [GRAPHIC] [TIFF OMITTED] T1780A.134
    
    [GRAPHIC] [TIFF OMITTED] T1780A.135
    
    [GRAPHIC] [TIFF OMITTED] T1780A.136
    
    [GRAPHIC] [TIFF OMITTED] T1780A.137
    
    [GRAPHIC] [TIFF OMITTED] T1780A.138
    
    [GRAPHIC] [TIFF OMITTED] T1780A.139
    
    [GRAPHIC] [TIFF OMITTED] T1780A.140
    
    [GRAPHIC] [TIFF OMITTED] T1780A.141
    
    [GRAPHIC] [TIFF OMITTED] T1780A.142
    
    [GRAPHIC] [TIFF OMITTED] T1780A.143
    
    [GRAPHIC] [TIFF OMITTED] T1780A.144
    
    [GRAPHIC] [TIFF OMITTED] T1780A.145
    
    [GRAPHIC] [TIFF OMITTED] T1780A.146
    
    [GRAPHIC] [TIFF OMITTED] T1780A.147
    
    [GRAPHIC] [TIFF OMITTED] T1780A.148
    
    [GRAPHIC] [TIFF OMITTED] T1780A.149
    
    [GRAPHIC] [TIFF OMITTED] T1780A.150
    
    [GRAPHIC] [TIFF OMITTED] T1780A.151
    
    [GRAPHIC] [TIFF OMITTED] T1780A.152
    
    [GRAPHIC] [TIFF OMITTED] T1780A.153
    
    [GRAPHIC] [TIFF OMITTED] T1780A.154
    
    [GRAPHIC] [TIFF OMITTED] T1780A.155
    
    [GRAPHIC] [TIFF OMITTED] T1780A.156
    
    [GRAPHIC] [TIFF OMITTED] T1780A.157
    
    [GRAPHIC] [TIFF OMITTED] T1780A.158
    
    [GRAPHIC] [TIFF OMITTED] T1780A.159
    
    [GRAPHIC] [TIFF OMITTED] T1780A.160
    
    [GRAPHIC] [TIFF OMITTED] T1780A.161
    
    [GRAPHIC] [TIFF OMITTED] T1780A.162
    
    [GRAPHIC] [TIFF OMITTED] T1780A.163
    
    [GRAPHIC] [TIFF OMITTED] T1780A.164
    
    [GRAPHIC] [TIFF OMITTED] T1780A.165
    
    [GRAPHIC] [TIFF OMITTED] T1780A.166
    
    [GRAPHIC] [TIFF OMITTED] T1780A.167
    
    [GRAPHIC] [TIFF OMITTED] T1780A.168
    
    [GRAPHIC] [TIFF OMITTED] T1780A.169
    
    [GRAPHIC] [TIFF OMITTED] T1780A.170
    
    [GRAPHIC] [TIFF OMITTED] T1780A.171
    
    [GRAPHIC] [TIFF OMITTED] T1780A.172
    
    [GRAPHIC] [TIFF OMITTED] T1780A.173
    
    [GRAPHIC] [TIFF OMITTED] T1780A.174
    
    [GRAPHIC] [TIFF OMITTED] T1780A.175
    
    [GRAPHIC] [TIFF OMITTED] T1780A.176
    
    [GRAPHIC] [TIFF OMITTED] T1780A.177
    
    [GRAPHIC] [TIFF OMITTED] T1780A.178
    
    [GRAPHIC] [TIFF OMITTED] T1780A.179
    
    [GRAPHIC] [TIFF OMITTED] T1780A.180
    
    [GRAPHIC] [TIFF OMITTED] T1780A.181
    
    [GRAPHIC] [TIFF OMITTED] T1780A.182
    
    [GRAPHIC] [TIFF OMITTED] T1780A.183
    
    [GRAPHIC] [TIFF OMITTED] T1780A.184
    
    [GRAPHIC] [TIFF OMITTED] T1780A.185
    
    [GRAPHIC] [TIFF OMITTED] T1780A.186
    
    [GRAPHIC] [TIFF OMITTED] T1780A.187
    
    [GRAPHIC] [TIFF OMITTED] T1780A.188
    
    [GRAPHIC] [TIFF OMITTED] T1780A.189
    
    [GRAPHIC] [TIFF OMITTED] T1780A.190
    
    [GRAPHIC] [TIFF OMITTED] T1780A.191
    
    [GRAPHIC] [TIFF OMITTED] T1780A.192
    
    [GRAPHIC] [TIFF OMITTED] T1780A.193
    
    [GRAPHIC] [TIFF OMITTED] T1780A.194
    
    [GRAPHIC] [TIFF OMITTED] T1780A.195
    
    [GRAPHIC] [TIFF OMITTED] T1780A.196
    
    [GRAPHIC] [TIFF OMITTED] T1780A.197
    
    [GRAPHIC] [TIFF OMITTED] T1780A.198
    
    [GRAPHIC] [TIFF OMITTED] T1780A.199
    
    [GRAPHIC] [TIFF OMITTED] T1780A.200
    
    [GRAPHIC] [TIFF OMITTED] T1780A.201
    
    [GRAPHIC] [TIFF OMITTED] T1780A.202
    
    [GRAPHIC] [TIFF OMITTED] T1780A.203
    
    [GRAPHIC] [TIFF OMITTED] T1780A.204
    
    [GRAPHIC] [TIFF OMITTED] T1780A.205
    
    [GRAPHIC] [TIFF OMITTED] T1780A.206
    
    [GRAPHIC] [TIFF OMITTED] T1780A.207
    
    [GRAPHIC] [TIFF OMITTED] T1780A.208
    
    [GRAPHIC] [TIFF OMITTED] T1780A.209
    
    [GRAPHIC] [TIFF OMITTED] T1780A.210
    
    [GRAPHIC] [TIFF OMITTED] T1780A.211
    
    [GRAPHIC] [TIFF OMITTED] T1780A.212
    
    [GRAPHIC] [TIFF OMITTED] T1780A.213
    
    [GRAPHIC] [TIFF OMITTED] T1780A.214
    
    [GRAPHIC] [TIFF OMITTED] T1780A.215
    
    [GRAPHIC] [TIFF OMITTED] T1780A.216
    
    [GRAPHIC] [TIFF OMITTED] T1780A.217
    
    [GRAPHIC] [TIFF OMITTED] T1780A.218
    
    [GRAPHIC] [TIFF OMITTED] T1780A.219
    
    [GRAPHIC] [TIFF OMITTED] T1780A.220
    
    [GRAPHIC] [TIFF OMITTED] T1780A.221
    
    [GRAPHIC] [TIFF OMITTED] T1780A.222
    
    [GRAPHIC] [TIFF OMITTED] T1780A.223
    
    [GRAPHIC] [TIFF OMITTED] T1780A.224
    
    [GRAPHIC] [TIFF OMITTED] T1780A.225
    
    [GRAPHIC] [TIFF OMITTED] T1780A.226
    
    [GRAPHIC] [TIFF OMITTED] T1780A.227
    
    [GRAPHIC] [TIFF OMITTED] T1780A.228
    
    [GRAPHIC] [TIFF OMITTED] T1780A.229
    
    [GRAPHIC] [TIFF OMITTED] T1780A.230
    
    [GRAPHIC] [TIFF OMITTED] T1780A.231
    
    [GRAPHIC] [TIFF OMITTED] T1780A.232
    
    [GRAPHIC] [TIFF OMITTED] T1780A.233
    
    [GRAPHIC] [TIFF OMITTED] T1780A.234
    
    [GRAPHIC] [TIFF OMITTED] T1780A.235
    
    [GRAPHIC] [TIFF OMITTED] T1780A.236
    
    [GRAPHIC] [TIFF OMITTED] T1780A.237
    
    [GRAPHIC] [TIFF OMITTED] T1780A.238
    
    [GRAPHIC] [TIFF OMITTED] T1780A.239
    
    [GRAPHIC] [TIFF OMITTED] T1780A.240
    
    [GRAPHIC] [TIFF OMITTED] T1780A.241
    
    [GRAPHIC] [TIFF OMITTED] T1780A.242
    
    [GRAPHIC] [TIFF OMITTED] T1780A.243
    
    [GRAPHIC] [TIFF OMITTED] T1780A.244
    
    [GRAPHIC] [TIFF OMITTED] T1780A.245
    
    [GRAPHIC] [TIFF OMITTED] T1780A.246
    
    [GRAPHIC] [TIFF OMITTED] T1780A.247
    
    [GRAPHIC] [TIFF OMITTED] T1780A.248
    
    [GRAPHIC] [TIFF OMITTED] T1780A.249
    
    [GRAPHIC] [TIFF OMITTED] T1780A.250
    
    [GRAPHIC] [TIFF OMITTED] T1780A.251
    
    [GRAPHIC] [TIFF OMITTED] T1780A.252
    
    [GRAPHIC] [TIFF OMITTED] T1780A.253
    
    [GRAPHIC] [TIFF OMITTED] T1780A.254
    
    [GRAPHIC] [TIFF OMITTED] T1780A.255
    
    [GRAPHIC] [TIFF OMITTED] T1780A.256
    
    [GRAPHIC] [TIFF OMITTED] T1780A.257
    
    [GRAPHIC] [TIFF OMITTED] T1780A.258
    
    [GRAPHIC] [TIFF OMITTED] T1780A.259
    
    [GRAPHIC] [TIFF OMITTED] T1780A.260
    
    [GRAPHIC] [TIFF OMITTED] T1780A.261
    
    [GRAPHIC] [TIFF OMITTED] T1780A.262
    
    [GRAPHIC] [TIFF OMITTED] T1780A.263
    
    [GRAPHIC] [TIFF OMITTED] T1780A.264
    
    [GRAPHIC] [TIFF OMITTED] T1780A.265
    
    [GRAPHIC] [TIFF OMITTED] T1780A.266
    
    [GRAPHIC] [TIFF OMITTED] T1780A.267
    
    [GRAPHIC] [TIFF OMITTED] T1780A.268
    
    [GRAPHIC] [TIFF OMITTED] T1780A.269
    
    [GRAPHIC] [TIFF OMITTED] T1780A.270
    
    [GRAPHIC] [TIFF OMITTED] T1780A.271
    
    [GRAPHIC] [TIFF OMITTED] T1780A.272
    
    [GRAPHIC] [TIFF OMITTED] T1780A.273
    
    [GRAPHIC] [TIFF OMITTED] T1780A.274
    
    [GRAPHIC] [TIFF OMITTED] T1780A.275
    
    [GRAPHIC] [TIFF OMITTED] T1780A.276
    
    [GRAPHIC] [TIFF OMITTED] T1780A.277
    
    [GRAPHIC] [TIFF OMITTED] T1780A.278
    
    [GRAPHIC] [TIFF OMITTED] T1780A.279
    
    [GRAPHIC] [TIFF OMITTED] T1780A.280
    
    [GRAPHIC] [TIFF OMITTED] T1780A.281
    
    [GRAPHIC] [TIFF OMITTED] T1780A.282
    
    [GRAPHIC] [TIFF OMITTED] T1780A.283
    
    [GRAPHIC] [TIFF OMITTED] T1780A.284
    
    [GRAPHIC] [TIFF OMITTED] T1780A.285
    
    [GRAPHIC] [TIFF OMITTED] T1780A.286
    
    [GRAPHIC] [TIFF OMITTED] T1780A.287
    
    [GRAPHIC] [TIFF OMITTED] T1780A.288
    
    [GRAPHIC] [TIFF OMITTED] T1780A.289
    
    [GRAPHIC] [TIFF OMITTED] T1780A.290
    
    [GRAPHIC] [TIFF OMITTED] T1780A.291
    
    [GRAPHIC] [TIFF OMITTED] T1780A.292
    
    [GRAPHIC] [TIFF OMITTED] T1780A.293
    
    [GRAPHIC] [TIFF OMITTED] T1780A.294
    
    [GRAPHIC] [TIFF OMITTED] T1780A.295
    
    [GRAPHIC] [TIFF OMITTED] T1780A.296
    
    [GRAPHIC] [TIFF OMITTED] T1780A.297
    
    [GRAPHIC] [TIFF OMITTED] T1780A.298
    
    [GRAPHIC] [TIFF OMITTED] T1780A.299
    
    [GRAPHIC] [TIFF OMITTED] T1780A.300
    
    [GRAPHIC] [TIFF OMITTED] T1780A.301
    
    [GRAPHIC] [TIFF OMITTED] T1780A.302
    
    [GRAPHIC] [TIFF OMITTED] T1780A.303
    
    [GRAPHIC] [TIFF OMITTED] T1780A.304
    
    [GRAPHIC] [TIFF OMITTED] T1780A.305
    
    [GRAPHIC] [TIFF OMITTED] T1780A.306
    
    [GRAPHIC] [TIFF OMITTED] T1780A.307
    
    [GRAPHIC] [TIFF OMITTED] T1780A.308
    
    [GRAPHIC] [TIFF OMITTED] T1780A.309
    
    [GRAPHIC] [TIFF OMITTED] T1780A.310
    
    [GRAPHIC] [TIFF OMITTED] T1780A.311
    
    [GRAPHIC] [TIFF OMITTED] T1780A.312
    
    [GRAPHIC] [TIFF OMITTED] T1780A.313
    
    [GRAPHIC] [TIFF OMITTED] T1780A.314
    
    [GRAPHIC] [TIFF OMITTED] T1780A.315
    
    [GRAPHIC] [TIFF OMITTED] T1780A.316
    
    [GRAPHIC] [TIFF OMITTED] T1780A.317
    
    [GRAPHIC] [TIFF OMITTED] T1780A.318
    
    [GRAPHIC] [TIFF OMITTED] T1780A.319
    
    [GRAPHIC] [TIFF OMITTED] T1780A.320
    
    [GRAPHIC] [TIFF OMITTED] T1780A.321
    
    [GRAPHIC] [TIFF OMITTED] T1780A.322
    
    [GRAPHIC] [TIFF OMITTED] T1780A.323
    
    [GRAPHIC] [TIFF OMITTED] T1780A.324
    
    [GRAPHIC] [TIFF OMITTED] T1780A.325
    
    [GRAPHIC] [TIFF OMITTED] T1780A.326
    
    [GRAPHIC] [TIFF OMITTED] T1780A.327
    
    [GRAPHIC] [TIFF OMITTED] T1780A.328
    
    [GRAPHIC] [TIFF OMITTED] T1780A.329
    
    [GRAPHIC] [TIFF OMITTED] T1780A.330
    
    [GRAPHIC] [TIFF OMITTED] T1780A.331
    
    [GRAPHIC] [TIFF OMITTED] T1780A.332
    
    [GRAPHIC] [TIFF OMITTED] T1780A.333
    
    [GRAPHIC] [TIFF OMITTED] T1780A.334
    
    [GRAPHIC] [TIFF OMITTED] T1780A.335
    
    [GRAPHIC] [TIFF OMITTED] T1780A.336
    
    [GRAPHIC] [TIFF OMITTED] T1780A.337
    
    [GRAPHIC] [TIFF OMITTED] T1780A.338
    
    [GRAPHIC] [TIFF OMITTED] T1780A.339
    
    [GRAPHIC] [TIFF OMITTED] T1780A.340
    
    [GRAPHIC] [TIFF OMITTED] T1780A.341
    
    [GRAPHIC] [TIFF OMITTED] T1780A.342
    
    [GRAPHIC] [TIFF OMITTED] T1780A.343
    
    [GRAPHIC] [TIFF OMITTED] T1780A.344
    
    [GRAPHIC] [TIFF OMITTED] T1780A.345
    
    [GRAPHIC] [TIFF OMITTED] T1780A.346
    
    [GRAPHIC] [TIFF OMITTED] T1780A.347
    
    [GRAPHIC] [TIFF OMITTED] T1780A.348
    
    [GRAPHIC] [TIFF OMITTED] T1780A.349
    
    [GRAPHIC] [TIFF OMITTED] T1780A.350
    
    [GRAPHIC] [TIFF OMITTED] T1780A.351
    
    [GRAPHIC] [TIFF OMITTED] T1780A.352
    
    [GRAPHIC] [TIFF OMITTED] T1780A.353
    
    [GRAPHIC] [TIFF OMITTED] T1780A.354
    
    [GRAPHIC] [TIFF OMITTED] T1780A.355
    
    [GRAPHIC] [TIFF OMITTED] T1780A.356
    
    [GRAPHIC] [TIFF OMITTED] T1780A.357
    
    [GRAPHIC] [TIFF OMITTED] T1780A.358
    
    [GRAPHIC] [TIFF OMITTED] T1780A.359
    
    [GRAPHIC] [TIFF OMITTED] T1780A.360
    
    [GRAPHIC] [TIFF OMITTED] T1780A.361
    
    [GRAPHIC] [TIFF OMITTED] T1780A.362
    
    [GRAPHIC] [TIFF OMITTED] T1780A.363
    
    [GRAPHIC] [TIFF OMITTED] T1780A.364
    
    [GRAPHIC] [TIFF OMITTED] T1780A.365
    
    [GRAPHIC] [TIFF OMITTED] T1780A.366
    
    [GRAPHIC] [TIFF OMITTED] T1780A.367
    
    [GRAPHIC] [TIFF OMITTED] T1780A.368
    
    [GRAPHIC] [TIFF OMITTED] T1780A.369
    
    [GRAPHIC] [TIFF OMITTED] T1780A.370
    
    [GRAPHIC] [TIFF OMITTED] T1780A.371
    
    [GRAPHIC] [TIFF OMITTED] T1780A.372
    
    [GRAPHIC] [TIFF OMITTED] T1780A.373
    
    [GRAPHIC] [TIFF OMITTED] T1780A.374
    
    [GRAPHIC] [TIFF OMITTED] T1780A.375
    
    [GRAPHIC] [TIFF OMITTED] T1780A.376
    
    [GRAPHIC] [TIFF OMITTED] T1780A.377
    
    [GRAPHIC] [TIFF OMITTED] T1780A.378
    
    [GRAPHIC] [TIFF OMITTED] T1780A.379
    
    [GRAPHIC] [TIFF OMITTED] T1780A.380
    
    [GRAPHIC] [TIFF OMITTED] T1780A.381
    
    [GRAPHIC] [TIFF OMITTED] T1780A.382
    
    [GRAPHIC] [TIFF OMITTED] T1780A.383
    
    [GRAPHIC] [TIFF OMITTED] T1780A.384
    
    [GRAPHIC] [TIFF OMITTED] T1780A.385
    
    [GRAPHIC] [TIFF OMITTED] T1780A.386
    
    [GRAPHIC] [TIFF OMITTED] T1780A.387
    
    [GRAPHIC] [TIFF OMITTED] T1780A.388
    
    [GRAPHIC] [TIFF OMITTED] T1780A.389
    
    [GRAPHIC] [TIFF OMITTED] T1780A.390
    
    [GRAPHIC] [TIFF OMITTED] T1780A.391
    
    [GRAPHIC] [TIFF OMITTED] T1780A.392
    
    [GRAPHIC] [TIFF OMITTED] T1780A.393
    
    [GRAPHIC] [TIFF OMITTED] T1780A.394
    
    [GRAPHIC] [TIFF OMITTED] T1780A.395
    
    [GRAPHIC] [TIFF OMITTED] T1780A.396
    
    [GRAPHIC] [TIFF OMITTED] T1780A.397
    
    [GRAPHIC] [TIFF OMITTED] T1780A.398
    
    [GRAPHIC] [TIFF OMITTED] T1780A.399
    
    [GRAPHIC] [TIFF OMITTED] T1780A.400
    
    [GRAPHIC] [TIFF OMITTED] T1780A.401
    
    [GRAPHIC] [TIFF OMITTED] T1780A.402
    
    [GRAPHIC] [TIFF OMITTED] T1780A.403
    
    [GRAPHIC] [TIFF OMITTED] T1780A.404
    
    [GRAPHIC] [TIFF OMITTED] T1780A.405
    
    [GRAPHIC] [TIFF OMITTED] T1780A.406
    
    [GRAPHIC] [TIFF OMITTED] T1780A.407
    
    [GRAPHIC] [TIFF OMITTED] T1780A.408
    
    [GRAPHIC] [TIFF OMITTED] T1780A.409
    
    [GRAPHIC] [TIFF OMITTED] T1780A.410
    
    [GRAPHIC] [TIFF OMITTED] T1780A.411
    
    [GRAPHIC] [TIFF OMITTED] T1780A.412
    
    [GRAPHIC] [TIFF OMITTED] T1780A.413
    
    [GRAPHIC] [TIFF OMITTED] T1780A.414
    
    [GRAPHIC] [TIFF OMITTED] T1780A.415
    
    [GRAPHIC] [TIFF OMITTED] T1780A.416
    
    [GRAPHIC] [TIFF OMITTED] T1780A.417
    
    [GRAPHIC] [TIFF OMITTED] T1780A.418
    
    [GRAPHIC] [TIFF OMITTED] T1780A.419
    
    [GRAPHIC] [TIFF OMITTED] T1780A.420
    
    [GRAPHIC] [TIFF OMITTED] T1780A.421
    
    [GRAPHIC] [TIFF OMITTED] T1780A.422
    
    [GRAPHIC] [TIFF OMITTED] T1780A.423
    
    [GRAPHIC] [TIFF OMITTED] T1780A.424
    
    [GRAPHIC] [TIFF OMITTED] T1780A.425
    
    [GRAPHIC] [TIFF OMITTED] T1780A.426
    
    [GRAPHIC] [TIFF OMITTED] T1780A.427
    
    [GRAPHIC] [TIFF OMITTED] T1780A.428
    
    [GRAPHIC] [TIFF OMITTED] T1780A.429
    
    [GRAPHIC] [TIFF OMITTED] T1780A.430
    
    [GRAPHIC] [TIFF OMITTED] T1780A.431
    
    [GRAPHIC] [TIFF OMITTED] T1780A.432
    
    [GRAPHIC] [TIFF OMITTED] T1780A.433
    
    [GRAPHIC] [TIFF OMITTED] T1780A.434
    
    [GRAPHIC] [TIFF OMITTED] T1780A.435
    
    [GRAPHIC] [TIFF OMITTED] T1780A.436
    
    [GRAPHIC] [TIFF OMITTED] T1780A.437
    
    [GRAPHIC] [TIFF OMITTED] T1780A.438
    
    [GRAPHIC] [TIFF OMITTED] T1780A.439
    
    [GRAPHIC] [TIFF OMITTED] T1780A.440
    
    [GRAPHIC] [TIFF OMITTED] T1780A.441
    
    [GRAPHIC] [TIFF OMITTED] T1780A.442
    
    [GRAPHIC] [TIFF OMITTED] T1780A.443
    
    [GRAPHIC] [TIFF OMITTED] T1780A.444
    
    [GRAPHIC] [TIFF OMITTED] T1780A.445
    
    [GRAPHIC] [TIFF OMITTED] T1780A.446
    
    [GRAPHIC] [TIFF OMITTED] T1780A.447
    
    [GRAPHIC] [TIFF OMITTED] T1780A.448
    
    [GRAPHIC] [TIFF OMITTED] T1780A.449
    
    [GRAPHIC] [TIFF OMITTED] T1780A.450
    
    [GRAPHIC] [TIFF OMITTED] T1780A.451
    
    [GRAPHIC] [TIFF OMITTED] T1780A.452
    
    [GRAPHIC] [TIFF OMITTED] T1780A.453
    
    [GRAPHIC] [TIFF OMITTED] T1780A.454
    
    [GRAPHIC] [TIFF OMITTED] T1780A.455
    
    [GRAPHIC] [TIFF OMITTED] T1780A.456
    
    [GRAPHIC] [TIFF OMITTED] T1780A.457
    
    [GRAPHIC] [TIFF OMITTED] T1780A.458
    
    [GRAPHIC] [TIFF OMITTED] T1780A.459
    
    [GRAPHIC] [TIFF OMITTED] T1780A.460
    
    [GRAPHIC] [TIFF OMITTED] T1780A.461
    
    [GRAPHIC] [TIFF OMITTED] T1780A.462
    
    [GRAPHIC] [TIFF OMITTED] T1780A.463
    
    [GRAPHIC] [TIFF OMITTED] T1780A.464
    
    [GRAPHIC] [TIFF OMITTED] T1780A.465
    
    [GRAPHIC] [TIFF OMITTED] T1780A.466
    
    [GRAPHIC] [TIFF OMITTED] T1780A.467
    
    [GRAPHIC] [TIFF OMITTED] T1780A.468
    
    [GRAPHIC] [TIFF OMITTED] T1780A.469
    
    [GRAPHIC] [TIFF OMITTED] T1780A.470
    
    [GRAPHIC] [TIFF OMITTED] T1780A.471
    
    [GRAPHIC] [TIFF OMITTED] T1780A.472
    
    [GRAPHIC] [TIFF OMITTED] T1780A.473
    
    [GRAPHIC] [TIFF OMITTED] T1780A.474
    
    [GRAPHIC] [TIFF OMITTED] T1780A.475
    
    [GRAPHIC] [TIFF OMITTED] T1780A.476
    
    [GRAPHIC] [TIFF OMITTED] T1780A.477
    
    [GRAPHIC] [TIFF OMITTED] T1780A.478
    
    [GRAPHIC] [TIFF OMITTED] T1780A.479
    
    [GRAPHIC] [TIFF OMITTED] T1780A.480
    
    [GRAPHIC] [TIFF OMITTED] T1780A.481
    
    [GRAPHIC] [TIFF OMITTED] T1780A.482
    
    [GRAPHIC] [TIFF OMITTED] T1780A.483
    
    [GRAPHIC] [TIFF OMITTED] T1780A.484
    
    [GRAPHIC] [TIFF OMITTED] T1780A.485
    
    [GRAPHIC] [TIFF OMITTED] T1780A.486
    
    [GRAPHIC] [TIFF OMITTED] T1780A.487
    
    [GRAPHIC] [TIFF OMITTED] T1780A.488
    
    [GRAPHIC] [TIFF OMITTED] T1780A.489
    
    [GRAPHIC] [TIFF OMITTED] T1780A.490
    
    [GRAPHIC] [TIFF OMITTED] T1780A.491
    
    [GRAPHIC] [TIFF OMITTED] T1780A.492
    
    [GRAPHIC] [TIFF OMITTED] T1780A.493
    
    [GRAPHIC] [TIFF OMITTED] T1780A.494
    
    [GRAPHIC] [TIFF OMITTED] T1780A.495
    
    [GRAPHIC] [TIFF OMITTED] T1780A.496
    
    [GRAPHIC] [TIFF OMITTED] T1780A.497
    
    [GRAPHIC] [TIFF OMITTED] T1780A.498
    
    [GRAPHIC] [TIFF OMITTED] T1780A.499
    
    [GRAPHIC] [TIFF OMITTED] T1780A.500
    
    [GRAPHIC] [TIFF OMITTED] T1780A.501
    
    [GRAPHIC] [TIFF OMITTED] T1780A.502
    
    [GRAPHIC] [TIFF OMITTED] T1780A.503
    
    [GRAPHIC] [TIFF OMITTED] T1780A.504
    
    [GRAPHIC] [TIFF OMITTED] T1780A.505
    
    [GRAPHIC] [TIFF OMITTED] T1780A.506
    
    [GRAPHIC] [TIFF OMITTED] T1780A.507
    
    [GRAPHIC] [TIFF OMITTED] T1780A.508
    
    [GRAPHIC] [TIFF OMITTED] T1780A.509
    
    [GRAPHIC] [TIFF OMITTED] T1780A.510
    
    [GRAPHIC] [TIFF OMITTED] T1780A.511
    
    [GRAPHIC] [TIFF OMITTED] T1780A.512
    
    [GRAPHIC] [TIFF OMITTED] T1780A.513
    
    [GRAPHIC] [TIFF OMITTED] T1780A.514
    
    [GRAPHIC] [TIFF OMITTED] T1780A.515
    
    [GRAPHIC] [TIFF OMITTED] T1780A.516
    
    [GRAPHIC] [TIFF OMITTED] T1780A.517
    
    [GRAPHIC] [TIFF OMITTED] T1780A.518
    
    [GRAPHIC] [TIFF OMITTED] T1780A.519
    
    [GRAPHIC] [TIFF OMITTED] T1780A.520
    
    [GRAPHIC] [TIFF OMITTED] T1780A.521
    
    [GRAPHIC] [TIFF OMITTED] T1780A.522
    
    [GRAPHIC] [TIFF OMITTED] T1780A.523
    
    [GRAPHIC] [TIFF OMITTED] T1780A.524
    
    [GRAPHIC] [TIFF OMITTED] T1780A.525
    
    [GRAPHIC] [TIFF OMITTED] T1780A.526
    
    [GRAPHIC] [TIFF OMITTED] T1780A.527
    
    [GRAPHIC] [TIFF OMITTED] T1780A.528
    
    [GRAPHIC] [TIFF OMITTED] T1780A.529
    
    [GRAPHIC] [TIFF OMITTED] T1780A.530
    
    [GRAPHIC] [TIFF OMITTED] T1780A.531
    
    [GRAPHIC] [TIFF OMITTED] T1780A.532
    
    [GRAPHIC] [TIFF OMITTED] T1780A.533
    
    [GRAPHIC] [TIFF OMITTED] T1780A.534
    
    [GRAPHIC] [TIFF OMITTED] T1780A.535
    
    [GRAPHIC] [TIFF OMITTED] T1780A.536
    
    [GRAPHIC] [TIFF OMITTED] T1780A.537
    
    [GRAPHIC] [TIFF OMITTED] T1780A.538
    
    [GRAPHIC] [TIFF OMITTED] T1780A.539
    
    [GRAPHIC] [TIFF OMITTED] T1780A.540
    
    [GRAPHIC] [TIFF OMITTED] T1780A.541
    
    [GRAPHIC] [TIFF OMITTED] T1780A.542
    
    [GRAPHIC] [TIFF OMITTED] T1780A.543
    
    [GRAPHIC] [TIFF OMITTED] T1780A.544
    
    [GRAPHIC] [TIFF OMITTED] T1780A.545
    
    [GRAPHIC] [TIFF OMITTED] T1780A.546
    
    [GRAPHIC] [TIFF OMITTED] T1780A.547
    
    [GRAPHIC] [TIFF OMITTED] T1780A.548
    
    [GRAPHIC] [TIFF OMITTED] T1780A.549
    
    [GRAPHIC] [TIFF OMITTED] T1780A.550
    
    [GRAPHIC] [TIFF OMITTED] T1780A.551
    
    [GRAPHIC] [TIFF OMITTED] T1780A.552
    
    [GRAPHIC] [TIFF OMITTED] T1780A.553
    
    [GRAPHIC] [TIFF OMITTED] T1780A.554
    
    [GRAPHIC] [TIFF OMITTED] T1780A.555
    
    [GRAPHIC] [TIFF OMITTED] T1780A.556
    
    [GRAPHIC] [TIFF OMITTED] T1780A.557
    
    [GRAPHIC] [TIFF OMITTED] T1780A.558
    
    [GRAPHIC] [TIFF OMITTED] T1780A.559
    
    [GRAPHIC] [TIFF OMITTED] T1780A.560
    
    [GRAPHIC] [TIFF OMITTED] T1780A.561
    
    [GRAPHIC] [TIFF OMITTED] T1780A.562
    
    [GRAPHIC] [TIFF OMITTED] T1780A.563
    
    [GRAPHIC] [TIFF OMITTED] T1780A.564
    
    [GRAPHIC] [TIFF OMITTED] T1780A.565
    
    [GRAPHIC] [TIFF OMITTED] T1780A.566
    
    [GRAPHIC] [TIFF OMITTED] T1780A.567
    
    [GRAPHIC] [TIFF OMITTED] T1780A.568
    
    [GRAPHIC] [TIFF OMITTED] T1780A.569
    
    [GRAPHIC] [TIFF OMITTED] T1780A.570
    
    [GRAPHIC] [TIFF OMITTED] T1780A.571
    
    [GRAPHIC] [TIFF OMITTED] T1780A.572
    
    [GRAPHIC] [TIFF OMITTED] T1780A.573
    
    [GRAPHIC] [TIFF OMITTED] T1780A.574
    
    [GRAPHIC] [TIFF OMITTED] T1780A.575
    
    [GRAPHIC] [TIFF OMITTED] T1780A.576
    
    [GRAPHIC] [TIFF OMITTED] T1780A.577
    
    [GRAPHIC] [TIFF OMITTED] T1780A.578
    
    [GRAPHIC] [TIFF OMITTED] T1780A.579
    
    [GRAPHIC] [TIFF OMITTED] T1780A.580
    
    [GRAPHIC] [TIFF OMITTED] T1780A.581
    
    [GRAPHIC] [TIFF OMITTED] T1780A.582
    
    [GRAPHIC] [TIFF OMITTED] T1780A.583
    
    [GRAPHIC] [TIFF OMITTED] T1780A.584
    
    [GRAPHIC] [TIFF OMITTED] T1780A.585
    
    [GRAPHIC] [TIFF OMITTED] T1780A.586
    
    [GRAPHIC] [TIFF OMITTED] T1780A.587
    
    [GRAPHIC] [TIFF OMITTED] T1780A.588
    
    [GRAPHIC] [TIFF OMITTED] T1780A.589
    
    [GRAPHIC] [TIFF OMITTED] T1780A.590
    
    [GRAPHIC] [TIFF OMITTED] T1780A.591
    
    [GRAPHIC] [TIFF OMITTED] T1780A.592
    
    [GRAPHIC] [TIFF OMITTED] T1780A.593
    
    [GRAPHIC] [TIFF OMITTED] T1780A.594
    
    [GRAPHIC] [TIFF OMITTED] T1780A.595
    
    [GRAPHIC] [TIFF OMITTED] T1780A.596
    
    [GRAPHIC] [TIFF OMITTED] T1780A.597
    
    [GRAPHIC] [TIFF OMITTED] T1780A.598
    
    [GRAPHIC] [TIFF OMITTED] T1780A.599
    
    [GRAPHIC] [TIFF OMITTED] T1780A.600
    
    [GRAPHIC] [TIFF OMITTED] T1780A.601
    
    [GRAPHIC] [TIFF OMITTED] T1780A.602
    
    [GRAPHIC] [TIFF OMITTED] T1780A.603
    
    [GRAPHIC] [TIFF OMITTED] T1780A.604
    
    [GRAPHIC] [TIFF OMITTED] T1780A.605
    
    [GRAPHIC] [TIFF OMITTED] T1780A.606
    
    [GRAPHIC] [TIFF OMITTED] T1780A.607
    
    [GRAPHIC] [TIFF OMITTED] T1780A.608
    
    [GRAPHIC] [TIFF OMITTED] T1780A.609
    
    [GRAPHIC] [TIFF OMITTED] T1780A.610
    
    [GRAPHIC] [TIFF OMITTED] T1780A.611
    
    [GRAPHIC] [TIFF OMITTED] T1780A.612
    
    [GRAPHIC] [TIFF OMITTED] T1780A.613
    
    [GRAPHIC] [TIFF OMITTED] T1780A.614
    
    [GRAPHIC] [TIFF OMITTED] T1780A.615
    
    [GRAPHIC] [TIFF OMITTED] T1780A.616
    
    [GRAPHIC] [TIFF OMITTED] T1780A.617
    
    [GRAPHIC] [TIFF OMITTED] T1780A.618
    
    [GRAPHIC] [TIFF OMITTED] T1780A.619
    
    [GRAPHIC] [TIFF OMITTED] T1780A.620
    
    [GRAPHIC] [TIFF OMITTED] T1780A.621
    
    [GRAPHIC] [TIFF OMITTED] T1780A.622
    
    [GRAPHIC] [TIFF OMITTED] T1780A.623
    
    [GRAPHIC] [TIFF OMITTED] T1780A.624
    
    [GRAPHIC] [TIFF OMITTED] T1780A.625
    
    [GRAPHIC] [TIFF OMITTED] T1780A.626
    
    [GRAPHIC] [TIFF OMITTED] T1780A.627
    
    [GRAPHIC] [TIFF OMITTED] T1780A.628
    
    [GRAPHIC] [TIFF OMITTED] T1780A.629
    
    [GRAPHIC] [TIFF OMITTED] T1780A.630
    
    [GRAPHIC] [TIFF OMITTED] T1780A.631
    
    [GRAPHIC] [TIFF OMITTED] T1780A.632
    
    [GRAPHIC] [TIFF OMITTED] T1780A.633
    
    [GRAPHIC] [TIFF OMITTED] T1780A.634
    
    [GRAPHIC] [TIFF OMITTED] T1780A.635
    
    [GRAPHIC] [TIFF OMITTED] T1780A.636
    
    [GRAPHIC] [TIFF OMITTED] T1780A.637
    
    [GRAPHIC] [TIFF OMITTED] T1780A.638
    
    [GRAPHIC] [TIFF OMITTED] T1780A.639
    
    [GRAPHIC] [TIFF OMITTED] T1780A.640
    
    [GRAPHIC] [TIFF OMITTED] T1780A.641
    
    [GRAPHIC] [TIFF OMITTED] T1780A.642
    
    [GRAPHIC] [TIFF OMITTED] T1780A.643
    
    [GRAPHIC] [TIFF OMITTED] T1780A.644
    
    [GRAPHIC] [TIFF OMITTED] T1780A.645
    
    [GRAPHIC] [TIFF OMITTED] T1780A.646
    
    [GRAPHIC] [TIFF OMITTED] T1780A.647
    
    [GRAPHIC] [TIFF OMITTED] T1780A.648
    
    [GRAPHIC] [TIFF OMITTED] T1780A.649
    
    [GRAPHIC] [TIFF OMITTED] T1780A.650
    
    [GRAPHIC] [TIFF OMITTED] T1780A.651
    
    [GRAPHIC] [TIFF OMITTED] T1780A.652
    
    [GRAPHIC] [TIFF OMITTED] T1780A.653
    
    [GRAPHIC] [TIFF OMITTED] T1780A.654
    
    [GRAPHIC] [TIFF OMITTED] T1780A.655
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Chu, Hon. Steven.................................................    81
Miller, W. F., Jr................................................     1

                                  <all>

</pre></body></html>
